       DEFENSE CONTRACT AUDIT AGENCY AUDITS OF
         INDIRECT COSTS AT MAJOR CONTRACTORS



Report Number PO 98-6-016                August 6, 1998



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 704-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL


Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884



Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
or by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.




Acronyms


CAS                   Cost Accounting Standard
                      Contracting Officer
k&A                   Defense Contract Audit Agency
DCAM                  Defense Contract Audit Manual
DFARS                 Defense Federal Acquisition Regulation Supplement
                      Federal Acquisition Regulation
E                     Government Auditing Standards
ICAPS                 Internal Control Audit Planning Summary
MAAR                  Mandatory Annual Audit Requirements
MRD                   Memorandum for Regional Directors
ODC                   Other Direct Costs
SAS                   Statements on Auditing Standards
U.S.C.                United States Code
                             INSPECTOR     GENERAL
                            DEPARTMENT    OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON. VIRGINIA 22202




                                                                           August 6, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Evaluation Report on Defense Contract Audit Agency Audits of Indirect
         Costs at Major Contractors (Report No. PO 98-6-016)


       We are providing this final evaluation report for review and comment.      We
considered management comments on a draft in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we revised Recommendations B. 1 and C. 1. We
request that you provide comments on the final report by October 6, 1998.

         We appreciate the courtesies extended to the staff throughout the evaluation.
Questions should be directed to Mr. Wayne C. Berry at (703) 604-8789 or
Ms. Diane H. Stetler at (703) 604-8737. Please refer to Appendix D for the
distribution of the report. The evaluation team members are listed inside the back
cover.




                                          Robert J. Lieberman
                                       Assistant Inspector General
                                                for Audit
                        Office of the Inspector General, DOD

Report. No. 98-6-016                                                       August 6, 1998
   (Project No. 7OC-9012)


                    Defense Contract Audit Agency Audits of
                      Indirect Costs at Major Contractors


                                 Executive Summary

Introduction. The Federal Acquisition Regulation requires a contractor to submit to
the contracting officer a final indirect cost rate proposal reflecting actual cost history
for the year. The Defense Contract Audit Agency is required to audit the contractor’s
incurred cost submission and to issue an advisory report. In addition, Title 10, United
States Code, Section 2324, “Allowable Costs Under Defense Contracts”; Title 41,
United States Code, Section 256, “Allowability of Costs”; and Cost Accounting
Standard 405, “Accounting for Unallowable Costs, n require the contractor to properly
identify and segregate expressly unallowable costs. Both Federal statutes permit the
contracting officer to assess a penalty when the contractor includes expressly
unallowable costs or other costs previously determined to be unallowable in the
incurred cost submission. (see Appendix C). Therefore, an important purpose of the
audit is to identify and report claimed costs that the auditor believes are unallowable
under the Federal Acquisition Regulation, advance agreements, and specific contract
clauses or are unallowable subject to penalties. In FY 1996, the Defense Contract
Audit Agency spent about 1.5 million hours (about 1,000 staff years) auditing about
$66 billion in direct and indirect incurred costs at major contractors. A major
contractor is one with $70 million or more in annual reimbursable contract costs.

Evaluation Objectives. The primary evaluation objective was to determine the
adequacy of the Defense Contract Audit Agency audit coverage of indirect cost claims
at major contractors. We evaluated whether the Defense Contract Audit Agency
performed a proper assessment in selecting cost accounts to audit and performed proper
transaction testing to determine the allowability, allocability, and reasonableness of
costs.

Evaluation Results. The Defense Contract Audit Agency has established a systematic
approach to auditing indirect costs that includes assessing audit risk, auditing the
contractor’s internal control system, performing mandatory annual audit procedures,
and using additional audit guidance for selecting and reviewing specific costs.
However, the Defense Contract Audit Agency did not always perform sufficient
transaction testing in conjunction with the internal control system review. In addition,
under current guidance, those reviews can be performed less frequently than every 3
years. Therefore, the internal control review results that the Defense Contract Audit
Agency relies on to assess audit risk may be outdated and inaccurate. (Finding A).

The Defense Contract Audit Agency audits of indirect costs for allowability,
allocability, and reasonableness often did not provide sufficient in-depth analysis to
conclude that the costs were acceptable for reimbursement. The audit procedures used
for selecting or sampling transactions for review were frequently not the most effective
means to review indirect costs. Consequently, DOD may be paying contractors for
costs that should not or need not be reimbursed, thereby increasing the overall cost for
DOD programs (Finding B).

The Defense Contract Audit Agency sometimes did not properly recognize or
recommend disallowance of the costs that Federal statutes and regulations define as
expressly unallowable for reimbursement under Government contracts. In addition, the
Defense Contract Audit Agency sometimes did not properly identify and report that
expressly unallowable costs were subject to the penalty provisions of Federal statutes.
Consequently, the Government has paid and may continue to pay contractors for costs
prohibited from cost reimbursement by Federal statutes and regulations (Finding C).

Summary of Recommendations. We recommend that the Director, Defense Contract
Audit Agency, issue revised guidance on performing and completing audits of internal
control systems for charging indirect costs, establishing more stringent reliability
parameters for statistical sampling applications, determining when to use judgmental
sampling to review claimed costs, implementing an auditing standard revision on due
professional care and professional skepticism, identifying and reporting unallowable
costs subject to penalties, and recommending assessment of penalties.

Management Comments. The Defense Contract Audit Agency nonconcurred with our
finding and recommendation on revising its implementation approach for performing
internal control system reviews of indirect costs. However, management did agree that
the internal control system review of indirect costs should be completed by the end of
FY 1998 for all major contractor entities. The Defense Contract Audit Agency
nonconcurred with establishing specific reliability goals for statistical sampling
applications, but offered an alternative solution. Management also nonconcurred with
revising its audit guidance on judgmental sampling, due professional care and
professional skepticism, and identification of unallowable costs subject to penalties.
The Defense Contract Audit Agency did agree to revise its guidance on reporting
unallowable costs subject to penalties. See Part I for a complete discussion of
management comments and Part III for the complete text of those comments.

Evaluation Response. We consider the management response on our recommendation
on revising its implementation approach for performing internal control system reviews
of indirect costs to be nonresponsive. Subsequent actions taken by management to
implement the agreed-to recommendation on completion of all internal control system
reviews of indirect costs by the end of FY 1998 are considered responsive. The
alternative solution offered on reliability goals for statistical sampling is acceptable and
we have revised our report (Finding B) and draft recommendation accordingly.
However, the management response on revising guidance on use of judgmental
sampling is nonresponsive. We also reviewed audit guidance subsequently issued by
the Defense Contract Audit Agency, and determined that they were fully responsive to
our recommendation to issue audit guidance incorporating the revised auditing standard
language on due professional care and professional skepticism. Additionally, we
revised our recommendation to clarify audit guidance on when unallowable costs are
subject to the penalty as part of existing guidance on the cost versus as a separate
section in the audit manual. We request that the Director, Defense Contract Audit
Agency, provide comments on our revised recommendation, and reconsider the
response on the two recommendations to which they nonconcurred. Written comments
should be provided on the final report by October 6, 1998.



                                                  ii
Table of Contents

Executive Summary                                                             i

Pat I - Audit Results
      Evaluation Background                                                   2
      Evaluation Objectives                                                   3
      Finding A.    Internal Control System Review and Audit Risk
                    Assessment                                                4
      Finding B.    Audit Procedures and Analysis of Indirect Costs          10
      Finding C.    Recognition and Reporting of Unallowable Costs Subject
                    to Penalties                                             21

Part II - Additional Information
      Appendix A. Evaluation Process                                         30
                  Scope and Methodology
      Appendix B. Summary of Prior Coverage                                  ;:
      Appendix C. Excerpts from Federal Statutes on Allowable Costs          34
      Appendix D. Report Distribution                                        51

Part III - Management Comments
      Defense Contract Audit Agency Comments                                 54
Part I - Evaluation Results
Evaluation Background

    The Federal Acquisition Regulation (FAR) requires a contractor to submit to the
    contracting officer (CO) a final indirect cost rate proposal reflecting actual cost
    history for the year. The Defense Contract Audit Agency (DCAA) is required
    to audit the contractor’s incurred cost submission and to issue an advisory
    report. The principle audit objective is to determine that the costs claimed by
    the contractor are allowable, allocable, and reasonable for reimbursement under
    Government contracts. The DCAA audits the incurred cost submission by using
    the results of overall system reviews, risk assessments, certain mandatory
    annual audit requirements (MAAR), and selective transaction testing. An
    important purpose of the audit report is to identify and describe any claimed
    costs that the auditor believes are unallowable under the FAR, advance
    agreements, or specific contract clauses.

    The FAR Subpart 3 1.2 contains the cost principles and procedures applicable to
    contracts with commercial organizations, such as Defense contractors. The cost
    principles and procedures are incorporated by reference in contracts and are
    used as the basis for determining which costs are reimbursable. The FAR
    3 1.204 states that costs shall be allowed to the extent that they are reasonable,
    allocable, and allowable under FAR 31.205. Costs not covered by FAR 31.205
    are not to be assumed to be either allowable or unallowable. Expressly
    unallowable costs are also described in Title 10, United States Code, Section
    2324 (10 U. S.C. 2324), “Allowable Costs Under Defense Contracts” (see
    Appendix C) .

    The contractor is required by the FAR, and Cost Accounting Standard (CAS)
    405, “Accounting for Unallowable Costs, ” to properly identify and segregate
    expressly unallowable and directly associated costs. The statutory provisions in
    10 U.S.C. 2324 and Title 41, United States Code, Section 256 (41 U.S.C.
    256), “Allowability of Costs” (the Federal statutes) (Appendix C), require
    contractors to comply with the regulatory requirement to segregate expressly
    unallowable costs. Under the Federal statutes, as implemented by FAR and the
    Defense Federal Acquisition Regulation Supplement (DFARS), the CO may
    impose a penalty when the contractor includes expressly unallowable costs in the
    incurred cost submission. A level-one penalty is assessed when the contractor
    includes in its incurred cost submission a cost that is considered expressly
    unallowable under FAR or DFARS. The level-one penalty is equal to the
    amount of the disallowed cost allocated to covered contracts plus interest. A
    level-two penalty is applicable when the contractor claims a cost that has been
    determined to be unallowable prior to the submission of the incurred cost
    proposal. This category includes costs such as those mutually agreed to be
    unallowable or previously determined by the CO in writing to be unallowable.
    The level-two penalty is equal to double that of the disallowed cost allocated to
    covered contracts.

    The Federal statutes also provide three circumstances in which the CO should
    waive the applicable penalty. The CO should waive the penalty if the contractor
    withdraws the proposal before the formal initiation of an audit and then
    resubmits a revised proposal not containing the cost. A waiver is also provided
    when the amount of the unallowable cost subject to the penalty is insignificant.

                                         2
     The FAR 42.709 defines insignificant as when the cost impact of the
     unallowable cost is $10,000 or less. The third circumstance has two criteria.
     The contractor must satisfy the CO that it has established appropriate policies
     and procedures, including an internal control and review system, that should
     preclude unallowable costs subject to penalties from being claimed and that the
     unallowable cost subject to the penalty was inadvertently included in the
     proposal.

     In FY 1996, the DCAA spent about 1.5 million hours (about 1,000 staff years)
     auditing about $66 billion in direct and indirect incurred costs at major
     contractors. A major contractor is one with $70 million or more in auditable
     dollars yearly. Of the 1,000 staff years, roughly 400 were spent on indirect
     cost audits. For fii overhead audit reports issued in FY 1996, the DCAA
     questioned about $842 million in direct and indirect costs. Therefore, DCAA
     questioned less than 1 percent of the dollars reviewed. Current management
     information reports available from DCAA do not separate dollars examined or
     costs questioned between direct and indirect costs. However, past experience
     indicates that the majority of costs questioned is indirect costs. The DCAA
     estimated that 1,454 staff years would be spent auditing $93.8 billion of direct
     and indirect incurred costs in FY 1997 and that in FY 1998,~ 1,323,   staff years
                                                                                 .
     would be used to review $90.4 billion.


Evaluation    Objectives

     The primary evaluation objective was to determine the adequacy of DCAA
     audits of indirect cost claims at major contractors. We evaluated whether
     DCAA performed a proper assessment in selecting cost accounts to be audited
     and performed sufficient transaction testing to determine the allowability,
     allocability, and reasonableness of the costs. We did not attempt to quantify the
     monetary effects of audit inadequacies. We will assess the interaction between
     DCAA and the cognizant administrative COs and their use of DCAA audit
     reports in a separate evaluation. See Appendix A for the evaluation process and
     Appendix B for a summary of prior coverage related to the evaluation
     objectives.




                                          3
            Finding A. Internal Control System
            Review and Audit Risk Assessment
            The DCAA process for assessing and documenting audit risk by using
            internal control system review results had not been fully implemented as
            of the completion dates of the incurred cost audits we reviewed. If
            properly implemented, the internal control system review for charging
            indirect costs should provide a reasonable basis for assessing the audit
            risk associated with those costs. Proper implementation includes
            transaction testing to verify that the contractor is complying with the
            appropriate policies and procedures. However, the auditors seldom
            performed sufficient transaction testing during the internal control
            system review to make this determination. In addition, four of eight
            offices had not completed the initial internal control system review for
            five of the nine contractor entities we reviewed. Because the internal
            control system review provides the basis for planning the yearly incurred
            indirect cost audit, proper implementation also requires that it be
            performed at least every 3 years, if not earlier. Without the performance
            of an adequate internal control system review, the DCAA cannot
            accurately assess the audit risk associated with incurred indirect costs;
            properly plan the incurred cost audit of indirect costs; and determine the
            nature, timing, and extent of transaction testing needed for the individual
            indirect cost accounts.


Incurred Cost Audit Process

     The DCAA auditor’s primary objective is to examine the contractor’s incurred
     cost submission and to express an opinion on whether the incurred costs are
     reasonable, allowable, and allocable. Incurred cost audits are usually performed
     on a contractor-wide basis covering all business activities and contracts to
     address the adequacy of management and financial systems and controls. The
     DCAA system approach to auditing is supplemented by transaction testing and
     other substantive procedures, such as comparative analyses, as required by the
     MAARs (Finding B). For major contractors, DCAA audits of relevant
     accounting and management systems are performed on a cyclical basis and form
     the foundation for the audit risk assessment. The risk assessment, in turn,
     should help determine the nature and extent of the transaction testing necessary
     on individual incurred cost audit assignments and for individual cost accounts.


Internal Control System Audit and Risk Assessment

     The Government Auditing Standards (GAS) require auditors to obtain a
     sufficient understanding of the contractor internal control structure as a basis for
     assessing risk. The auditor uses this assessment of control risk to properly plan
     the audit and to determine the nature, timing, and extent of testing needed.


                                          4
    Finding A. Internal Control System Review and Audit Risk Assessment

Internal Control System Review Process. In FY 1995, DCAA instituted a
new process for assessing and documenting the control risk for major
contractors. The DCAA determined that 10 common accounting and
management systems exist in the contract audit environment. The 10 systems
selected for the standard internal control reviews included: Environment and
Overall Accounting Controls, General Electronic Data Processing System,
Budget and Planning System, Purchasing System, Material System,
Compensation System, Labor System, Indirect and Other Direct Costs (ODC )
System, Billing System, and Estimating System. The DCAA established
standard control objectives and associated audit procedures for each system.
The internal control system guidance for charging indirect costs and ODCs
requires that to be considered adequate, a contractor system should have certain
attributes.

        o Contractor compliance reviews should provide reasonable assurance
that the policies and procedures relating to indirect costs and ODC submissions
are established, currently in practice, understood, and effectively implemented
by contractor employees.

       o Policies and procedures should be established and maintained to
charge and allocate, directly or indirectly, allowable costs in billing, claims, or
proposals applicable to Government contracts in accordance with FAR 3 1.2 and
CAS.

        o Policies and procedures should ensure that indirect costs and ODCs,
including directly associated costs, are properly classified as allowable or
unallowable in accordance with FAR and contract terms and that unallowable
costs are identified and excluded from proposals, billings, and claims submitted
to the Government.

       o Policies and procedures should ensure that indirect costs and ODCs
are properly charged and allocated to cost objectives in accordance with the
FAR and CAS.

Contractor Compliance with Policies and Procedures. The DCAA guidance,
Defense Contract Audit Manual, chapter 5, section 1000 (DCAM 5-lOOO), and
the standard audit program do not provide specifically for transaction testing to
be performed during the audit of the internal control system for charging
indirect costs. The audit program for this internal control system generally calls
for the review of contractor policies and procedures and not for the verification
of proper implementation. Of the four internal control system audits we
reviewed, one did not include any transaction testing and the other three
included limited compliance testing, generally of only one specific item. All
four reviews relied on findings from other DCAA audits such as the prior years’
incurred cost audits or the CAS 405 reviews. The contractor’s internal control
system for charging indirect costs cannot be adequately reviewed in this
manner. Generally, the DCAA incurred cost audits look only at a small
percentage of the indirect accounts. The DCAA may not use transaction testing
to review certain indirect cost accounts for several years. A more
comprehensive and productive approach would be to design a sampling plan that
includes a sample that covers all the indirect cost accounts for 1 year and to
thoroughly analyze the transactions selected. Using that approach, DCAA
would have an accurate picture of the effectiveness of the contractor’s indirect
cost charging system. The DCAA would still have to determine whether any

                                     5
Finding A. Internal Control System Review and Audit Risk Assessment


      sensitive accounts needed to be reviewed for that contractor’s fiscal year
      submission. If no deficiencies were found, DCAA could limit the amount of
      transaction testing needed for reviewing the individual indirect cost accounts for
      the next 2 contractor fiscal years, assuming a constant accounting environment.
      Additional transaction testing would be required if the contractor changes its
      accounting system; a significant variation was discovered during the indirect
      cost account comparative analysis; or the DCAA identified an audit lead relating
      to a sensitive account, such as relocation or reorganization and restructuring
      costs.

      Risk Assessment. The internal control system audit process included an overall
      risk assessment form called the Internal Control Audit Planning Summary
      (ICAPS) for each system. When properly completed, the ICAPS documents the
      control risk and overall assessment of that contractor system. In the
      Memorandum for Regional Directors No. 94-PFD-088(R), May 24, 1994,
      DCAA issued draft audit programs, internal control matrixes, and initial
      implementing guidance to its field audit offices. The original implementing
      guidance required that a contractor’s system be initially rated low risk unless
      prior reported deficiencies existed. The general plan was to stagger
      implementation of all the ICAPS audits over a 3-year period. Each audit office
      was to determine which systems were the highest risk and to perform those
      reviews first.

      The audit guidance in DCAM 5-103a requires that relevant accounting or
      management systems having a significant effect on Government contract costs
      be reviewed on a cyclical basis, every 2 to 4 years, based on a documented risk
      assessment. The guidance allows for a less frequent review if past experience
      and current audit risk is considered low. Conversely, if the system is changed,
      a review of the change is given a higher priority to determine whether reliance
      on the system may be continued.

      As explained earlier, the internal control audit is the foundation for the auditor’s
      control and inherent risk assessments as documented on the ICAPS form. The
      ICAPS is the basis for planning the audit and for determining the amount and
      nature of transaction testing. We believe that on average, a complete internal
      control system audit should be done at least every 3 years. Even though the
      contractor is required by Federal regulations to notify the Government when
      significant changes occur to any system, many times the contractor does not.
      The auditor is not aware of the change unless it is accidentally discovered when
      performing other reviews. Therefore, the auditor should not delay performance
      of the review longer than 3 years based on a low-risk assessment.

      Completion of Internal Control System Audits. At the time of our
      evaluation, four of the eight audit offices visited had not yet completed the
      internal control system audit for charging indirect costs for five of the nine
      contractor entities reviewed. Only two audit offices rated any contractor control
      objectives other than low risk for the initial FY 1995 ICAPS. In those cases,
      the audit office assigned a moderate risk rating to one or two control objectives.
      In general, all nine overall ratings indicated that the system was adequate. For
      FY 1997, the audit offices rated all control objectives low risk for the ICAPS
      on all nine contractor entities.

      The ICAPS assessment for indirect costs is the basis for all work planned and
      performed in an indirect cost audit. Therefore, the audit should have been

                                            6
          Finding A. Internal Control System Review and Audit Risk Assessment

    performed within the 3-year implementation period. The initial internal control
    system audit should be completed by the end of FY 1998 for all major
    contractors.


summary

    The GAS requires the auditor to obtain a sufficient understanding of the
    contractor internal control structure as a basis for assessing risk. The auditor is
    to use this assessment of control risk to properly plan the audit and to determine
    the nature, timing, and extent of testing needed. The current method of
    performing the internal control system review for charging indirect costs will
    not provide the auditor sufficient information about the system to properly
    assess the risk associated with it. Therefore, the present method for planning
    the audit, selecting the individual indirect cost accounts to be reviewed, and
    determining the amount of transaction testing needed to review the selected
    indirect costs will not achieve the objective of being the basis for determining
    the scope (nature, timing, and extent) of audit work to be performed on incurred
    indirect cost audits. By adjusting the approach to performing internal control
    audits for charging indirect costs, DCAA will be able to more accurately assess
    the audit risk and, therefore, perform more effective incurred cost audits of
    indirect costs.


Recommendations, Management Comments, and Evaluation
Response

    A. We recommend that the Director, Defense Contract Audit Agency:

            1. Require the performance of a comprehensive audit using a
    sampling plan that covers the universe of transactions charged to indirect
    cost accounts every 3 years as part of the internal control system audit for
    indirect costs at major contractors.

    DCAA Comment. DCAA nonconcurred by citing several Government
    Auditing Standards (GAS) to support its position that its auditors can and should
    rely on other forms of audit evidence to test contractors’ indirect cost system
    internal controls. Specifically, DCAA considers these forms of evidence to
    include: other completed and in-process internal control system reviews;
    incurred cost audits, contractor internal audits, and contractor’s screening
    process for unallowable indirect costs; comparative analysis between and within
    key contractor accounts; and CAS 405 reviews. In addition, DCAA does not
    agree that our findings indicate the need for an all inclusive sample of the
    indirect cost accounts every 3 years. DCAA stated that this approach is not
    more comprehensive and productive than the current approach. DCAA stated
    that because its auditors rely on multiple sources of audit evidence in forming
    opinions, a comprehensive sample to test the indirect cost accounts would
    duplicate some of the testing and evidence that DCAA already relies on.



                                         7
Finding A. Internal Control System Review and Audit Risk Assessment

      Evaluation Response. We believe that our recommended approach will
      produce a more comprehensive, timely, and accurate risk assessment than the
      current method DCAA uses to implement its risk assessment procedures. Our
      recommendation does not necessitate the scrapping of the current DCAA audit
      approach to risk assessment for auditing incurred indirect costs. The multiple
      sources of evidence that DCAA currently relies on in forming their opinions are
      generally not timely. For instance, the internal control system review for
      indirect costs and ODCs is performed on the contractor’s system as it exists in
      the present. At the four contractor locations where the DCAA auditors
      performed an initial internal control review, the auditors used results from prior
      incurred costs audits that averaged about two years older than the year under
      review. Currently, this time period variance is an inherent part of how DCAA
      performs its incurred indirect cost audits. Until DCAA audits indirect costs on
      a real-time basis or is ready to audit a contractor’s submission on receipt, which
      should be 180 days after year-end, this timing issue will exist.

      Another evidence source used by DCAA isthe most current CAS 405 review.
      Generally, a CAS 405 compliance review is performed every 3 years. DCAA
      may issue CAS 405 noncompliance reports at other times based on deficiencies
      identified during other audits. The current CAS 405 standard audit program
      does not require any compliance testing. At the eight offices we reviewed, one
      CAS 405 review was performed in 1990; one in 1994; four in 1995; and only
      one in 1996. In one case, the transaction testing for the CAS 405 review was
      performed during the 1995 incurred cost audit; therefore, the internal control
      review performed by this office relied solely on transaction testing performed
      during the 1995 audit. In addition, most of the other forms of evidence cited by
      DCAA do not include compliance testing to provide sufficient evidence that the
      controls are effective as required by GAS 4.3 lb. DCAA generally performs
      transaction testing to determine if claimed costs are allowable, allocable, and
      reasonable. This approach differs from compliance testing or tests of controls.
      DCAA does not select transactions and trace them through the contractor’s
      internal control system to determine if all the polices and procedures were
      followed. While the final conclusion may be the same, that costs are allowable
      or unallowable, the process differs significantly. Most contractor internal
      reviews of the incurred cost screening process also do not include compliance
      testing. The difference in approach is apparent because neither group of
      auditors generally points out the reason why the contractor claimed unallowable
      costs. Without knowing the cause, neither group of auditors can recommend
      revisions to the system to correct the deficiency. Correcting system deficiencies
      is an important goal when using the internal control system approach in
      auditing. We also disagree that the comparative analysis of amounts is an
      acceptable form of evidence for an internal control system review. We did not
      see this particular audit step, which is generally performed during the early
      stages of an incurred cost audit, being referenced in any internal control system
      audit or in any ICAPS risk assessment.

      DCAA cannot obtain a sufficient understanding of internal controls to plan the
      audit and determine the nature, timing, and extent of tests to be performed as
      required by GAS 4.2 1 as the ICAPS is currently implemented. Not all the
      indirect cost accounts are considered in their review to determine if the
      contractor is complying with its policies and procedures for removing
      unallowable costs. Only the accounts that the audit office determines are high
      risk or that the audit office has an audit lead on are reviewed. We believe that a
      proper method of reviewing a contractor’s system of internal controls is to test

                                           8
    Finding A. Internal Control System Review and Audit Risk Assessment

all applicable accounts. By sampling the accounts DCAA can achieve this goal.
Our recommendation only suggests this approach be used for an initial review to
establish a proper basis for DCAA risk rating. The first properly performed
internal control review could then act as a foundation for future reviews.

In addition, DCAA only requires consideration of performing these followup
reviews every 3 to 4 years. Most outside accounting firms perform an
assessment of a firm’s internal control system every year that a financial audit is
performed. DCAA audit procedures do not require an actual system review be
performed or updated, only the risk assessment needs to be updated based on
other work. The guidance requires that when part or all of a contractor’s
system undergoes significant changes, that that part of the system should be
reviewed.

Our recommendation focuses on DCAA providing a sound basis for its current
risk assessment of a contractor’s indirect cost system that will later provide a
proper foundation for future risk assessments. For DCAA to comply with
auditing standards, DCAA needs to provide a sound foundation for its risk
assessment. We ask that DCAA reconsider our recommendation and provide
additional comments in the response to our final report.

      2. Direct audit offices cognizant of all major contractor locations to
complete the initial audit of the internal control system foi the Indirect and
Other Direct Costs by the end of FY 1998, if not done in FYs 1996 or 1997.

DCAA Comment. The DCAA concurred and agreed to issue a memorandum
notifying the regional directors.

Evaluation Response. DCAA concurred with our recommendation, and issued
a March 3 1, 1998, Memorandum for Regional Directors (MRD) requesting the
status of all the initial ICAPS reviews be reported to Headquarters by May 15,
1998. We reviewed the information provided by the regions and determined
that the number of initial internal control system reviews of indirect costs that
should have been completed by the end of FY 1998 but are not planned to be
done until FY 1999 is small. Therefore, we consider the actions already taken
by DCAA as satisfing the intent of the recommendation.




                                     9
           Finding B. Audit Procedures and
           Analysis of Indirect Costs
           The DCAA has established a systematic approach to auditing indirect
           costs to include assessing audit risks, auditing the internal control
           systems, performing MAARs, and using additional audit guidance for
           selecting and reviewing specific costs. If properly implemented, that
           framework for performing incurred cost audits should provide adequate
           audit coverage. Often, however, DCAA audits of indirect costs for
           allowability, allocability, and reasonableness did not provide sufficient
           in-depth analyses to conclude that the costs were acceptable for
           reimbursement. Specifically, the audit procedures DCAA used for
           selecting and sampling transactions for review were not the most
           effective means to review indirect costs. In many cases, the auditors did
           not properly perform transaction testing because of inadequate analyses
           and poorly formed conclusions. Even though DCAA reported
           unallowable indirect costs for the contractor years we reviewed, DOD
           cannot be assured that all significant unallowable costs were identified
           and reported. Therefore, DOD may be paying contractors for costs that
           should not be reimbursed.


Mandatory Annual Audit Requirements

    The MAARs are the basic audit criteria and procedures that must be performed
    to comply with GAS in the incurred cost contract audit environment. Individual
    audit assignments are established for the completion of most MAARs. The
    MAARs vary greatly in purpose, type of transaction under review, and time
    frame of accomplishment. The DCAA has established 20 MAARs, which are
    classified as permanent file updates, reconciliations, transaction tests, or special
    purpose. Permanent file updates are accomplished on a continuous basis as
    audits are performed and are not necessarily associated with a single contractor
    fiscal year or only with incurred cost audits. Reconciliations are a preliminary
    step in the audit of incurred costs and are a type of substantive testing.
    Transaction tests are audits of historical costs that can be performed prior to the
    year-end, depending on the situation. Special-purpose MAARs may involve
    substantive testing and usually must be partially performed on a current basis.
    All MAARs must be performed at all major contractors except when a particular
    MAAR will not fulfill a useful current or future need or when the contractor has
    no costs claimed in one or more cost elements related to that MAAR. The
    extent of the audit work performed to complete each MAAR is adjusted based
    on the audit risk assessment.

    The MAARs provide the framework for incurred cost audit management.
    Specifically, MAARs 15, 16, 17, and 20 deal with the audit of the indirect cost
    accounts. MAARs 18 and 19 deal with the indirect allocation bases and the
    actual indirect rate computations. Of particular interest to our evaluation was
    how the audit office completed MAARs 15 and 16. MAAR 15, “Indirect Cost
    Comparison with Prior Years and Budgets,” requires the auditor to review the
    current year indirect cost accounts and the prior year costs and budgetary

                                         10
                    Finding B. Audit Procedures and Analysis of Indirect Costs

    estimates. The purpose is to identify changes in cost accounting practices,
    reclassifications of costs, and areas with substantial increases or decreases in
    costs incurred that require further audit analysis or explanation. MAAR 16,
    “Indirect Account Analysis,” requires a review of selected indirect cost
    accounts or transactions, such as sensitive accounts, new accounts, accounts
    with large variances, etc. The purpose is to obtain sufficient evidence to
    support an opinion on the allowability, allocability, and reasonableness of the
    costs.


Audit Sampling Procedures

    The overall incurred cost audit is generally composed of numerous individual
    audit assignments. Individual indirect cost accounts, such as employee morale
    and welfare or business conferences and meetings, may be reviewed in separate
    audit assignments by performing transaction testing. Five of the eight audit
    offices used statistical sampling techniques to select specific transactions or
    items for review for at least one individual cost account. In addition, many of
    the contractors’ internal screening processes for unallowable costs used some
    form of statistical sampling that had been coordinated with DCAA. Two of the
    five audit offices identified transactions through the use of statistical sampling
    that, when analyzed, produced questioned costs. Two offices used parameters
    to establish the sampling plan that were unacceptable. When DCAA auditors
    identified questioned costs, the auditors could not project the questioned costs to
    the rest of the universe because most of the questioned costs either were in the
    high-dollar stratum, for which the auditors performed a lOO-percent review, or
    were considered insignificant. In addition, at four locations, auditors used an
    inappropriate sampling technique that did not select the best transactions for
    review.

    Sampling Plan Parameters. At three of the five audit offices, auditors
    evaluated individual cost accounts by using statistical sampling. Auditors used
    various confidence levels and precision levels to determine the sample sizes with
    the universe consisting of all transactions charged to one cost account. At two
    locations, auditors used confidence levels of 70 to 75 percent with precision
    levels of 40 to 45 percent. In other cases, the confidence levels ranged from 80
    to 90 percent with precision levels of 5 to 25 percent. In general, the sample
    sizes ranged from 30 to 75 items, depending on the number of items to be
    reviewed in the cost account (universe). None of the reviews produced results
    that the auditor could project for additional questioned costs. Often, such small
    sample sizes as 30 to 60 items can produce a false negative. In other words,
    depending on the confidence level selected, the sample size will be small
    enough to almost ensure that some findings will not mm up in the sample.
    When an auditor misclassifies a contractor as low risk based on limited or no
    audit work, the confidence level is set artificially low and a relatively small
    sample size is selected. Consequently, the auditor may not find any or only a
    small amount of unallowable costs, thereby validating the contractor low-risk
    assessment. When using such small sample sizes, even the smallest finding
    should be considered relevant. Personnel at two locations told us that informal,
    written DCAA guidance provided during statistical sampling training allowed
    the auditors to use a 70-percent confidence level with a 45-percent precision
    level in cases of low risk. In a physical unit sampling application, precision of

                                        11
Finding B. Audit Procedures and Analvsis of Indirect Costs

      plus or minus 45 percent at the 70 percent confidence level (30 percent risk)
      equates approximately to a 90 percent confidence level (10 percent risk) with a
      precision of plus or minus 70 percent. Therefore, statistical sampling
      applications with reliability goals of confidence levels as low as 70 percent and
      precision levels of 45 percent do not provide sufficient evidence as required by
      GAS and the informal guidance provided as part of auditor training was
      inappropriate.

      Sampling Approach. The audit guidance in DCAM, appendix B, states that
      statistical sampling is usually the preferred approach in which the risk of
      material errors is probable and for which the universe consists of a large number
      of transactions of similar dollar value or consequence. That criteria did not
      apply to most of the DCAA audits we reviewed. Therefore, statistical sampling
      should not have been the preferred approach used to review the majority of the
      selected cost accounts.

      DCAA auditors rated all reviewed contractors low risk for indirect cost
      charging. In accordance with MAAR 16 requirements, the auditors selected
      some accounts for review that were considered sensitive and, therefore, high
      risk. If a contractor is truly low risk and sensitive accounts have been
      identified, a judgment or purposeful sample of high dollars and other attributes
      may be more effective than a statistical sample. Also, the DCAA reviews were
      of individual cost accounts that were not composed of transactions of similar
      dollar value. Further, at three locations, the auditors did not include items
      under a certain dollar amount in the sample universe. Lower dollar items
      should not be excluded without first calculating what percent of the total dollars
      these items make up. DCAA chapter 4, section 603 recognizes the potential
      importance of this issue by requiring the auditor to consider “Other transactions
      . . . where the total amount may be significant in the aggregate” when selecting
      items to be tested and in determining the extent of the review. Even when the
      auditors used a stratified sampling plan covering all transactions in the account,
      the smaller dollar amounts reviewed were not of the same consequence as the
      larger ones. For some cost accounts, DCAA auditors wrote off questioned costs
      in the lower dollar strata as insignificant if they could not be projected.

      Statistical sampling did not result in more questioned costs than nonstatistical
      sampling in the audits we reviewed. At two locations questioned costs came
      from the review of items in the high-dollar strata, which are not projected
      across the universe. Those high-dollar items would generally also be selected
      for review by a nonstatistical sample. Therefore, the time spent performing
      multiple statistical samples for various accounts could be more efficiently and
      effectively used by performing judgment or purposeful sampling. Accordingly,
      DCAA should revise the guidance in DCAM, chapter 4 and appendix B, to
      specify when judgment or purposeful sampling may be the better technique for
      reviewing selected cost accounts of low-risk contractors.

      Dollar Unit Sampling. During an audit of severance pay, DCAA used dollar
      unit sampling, which focused on individual payments. That statistical sampling
      method was not the best choice. Because employees normally receive more
      than one severance payment, the same employee can be selected more than once
      as a sample item. Duplicate selection occurred for the audit we reviewed.
      Because the critical attributes being examined related more to the employee, a
      better review approach would have been to select individual employees, not
      individual payments. For example, by using either a statistical or nonstatistical

                                          12
                    Finding B. Audit Procedures and Analysis of Indirect Costs

     approach in which employees are selected, the auditor could review the payment
     total and the severance pay agreement to make sure that the terms and
     conditions of the agreement were correctly implemented and complied with
     applicable FAR clauses and company policies and procedures. Therefore, a
     different sampling approach, such as a randomly selected statistical sample of
     employees, or technique would have resulted in a more efficient, effective
     review of costs.


Auditor Analysis of Selected Transactions

     At all eight audit offices, we identified situations where auditors did not
     critically analyze the transactions selected for review. Frequently, the auditor
     did not ask enough questions about the costs or the auditor determined that the
     dollar amount was insignificant and did not pursue complete answers to their
     inquiries about the items. For example, in some cases, the auditor statistically
     sampled transactions for review, but did not attempt to review other related
     costs that were unallowable. Also, the auditor limited the review to one or two
     attributes instead of reviewing all the criteria required to determine that a cost
     was allowable. Further, audit analysis of certain costs was hindered when some
     contractors did not provide DCAA enough information to properly determine
     whether the costs were unallowable and subject to penalties.

     Auditor Analysis. In performing statistical sampling at one location, auditors
     considered some items insignificant when documentation could not be found to
     support the costs. The auditor explained that the contractor had converted the
     records to microfiche for that year and that problems existed with the process.
     The auditor knew that original documentation could be requested. However,
     because of the nature of the transaction and the cost to the contractor to get the
     original documentation, the auditor decided not to pursue the documentation and
     open issues. By considering an item as insignificant or by not examining it, the
     auditor invalidated the statistical sample.

     At another location, during a review of company executive travel, an auditor
     initiated a loo-percent review of the costs and then adjusted the scope to review
     only the two most expensive trips for each executive. The working paper
     included information about trips that the auditor did not review. Two of the
     itemized expenses on the working paper were charges for house-sitting and
     spousal travel. The spousal travel was questioned for two executives but not for
     two others. When we asked why, auditors attributed lack of questioning the
     costs to an oversight and stated that the amount was insignificant and that
     questioning the costs would have no material effect on the indirect cost rates.
     Only one executive was shown as charging house-sitting fees. The auditor did
     not consider the costs because the auditor did not review the trips for which the
     fees were charged. Another trip, which auditors did not review, included costs
     not only for spousal travel, but also for attendance at a board meeting for a
     private university. None of those costs were questioned by the auditor.

     Audit Approach. At three audit offices, auditors ignored potentially
     unallowable costs because the transactions had not been selected for review. In
     one audit, the contractor’s internal audit group recognized that a difference of
     opinion existed between the contractor and DCAA on the allowability of the

                                         13
Finding B. Audit Procedures and Anahsis of Indirect Costs

      cost of providing meals at offsite meetings and for guests to attend company
      events. The contractor’s internal audit review segregated the amount DCAA
      might consider unallowable but did not include the cost in the internal audit
      report. The DCAA was offered access to the working papers, but did not
      review them to determine the cost differences. Therefore, the DCAA missed
      the opportunity to determine the existence of easily identifiable, potentially
      unallowable costs. The auditor could have removed those transactions from the
      statistical sample and performed a loo-percent review. At a minimum, the
      DCAA auditor should have determined the cost effect as calculated by the
      internal auditors for risk assessment purposes.

      Audit Criteria. At five audit offices, auditors limited the review to one or two
      attributes instead of reviewing all the criteria required to determine that a cost
      was allowable. For example, at one contractor location, the auditor did not
      perform a complete analysis of legal costs associated with patents. FAR
      31.205.30, “Patent costs, n states that those costs are generally allowable to the
      extent that they are incurred as a requirement of a Government contract or are
      for general advice on patent matters. The auditor reviewed the costs by
      obtaining supporting documentation from the contractor that stated that the
      patent costs related to a Government contract. Relating to a Government
      contract does not necessarily mean that the patents were required by a
      Government contract. The review of patent costs for allowability hinges on two
      criteria: that the legal costs relate to a patent and that the patent is required by a
      Government contract. The auditor did not attempt to verify that the patent was
      required by a Government contract.

      Contractor Documentation. At five audit offices, audit analysis of specific
      costs was hindered when contractors did not provide DCAA enough information
      to properly determine whether costs were unallowable and subject to penalties.
      Auditors initially questioned costs because of insufficient documentation. Later,
      the contractor provided additional documentation that the auditor used to
      determine the allowability of costs. Consulting costs and legal fees are
      particularly susceptible to deficient documentation. Generally, consulting and
      legal invoices alone do not provide sufficient information to enable the auditor
      to determine whether the cost is allowable, allocable, and reasonable.
      Specifically, FAR 31.205-33(f) stipulates what documentation is required to
      adequately support consultant costs. In some cases, the auditor concluded that
      the cost was allowable without all the required documentation. Auditors should
      question such costs unless all required documentation is provided (see
      Finding C).

      In addition, auditors did not review the consultant’s travel or other expenses to
      determine whether they complied with the applicable FAR clauses. In most
      cases, the auditor told us that either the costs were insignificant or the contractor
      screening process would review those costs for acceptability. Considering the
      sensitivity of such costs, the auditors should review the contractor screening
      process to verify that the costs are properly charged.




                                            14
                   Finding B. Audit Procedures and Analysis of Indirect Costs


Working Paper Documentation

    At seven audit offices, audit files contained working paper documentation that
    did not comply with GAS requirements. In general, auditors did not adequately
    document the specific criteria used to evaluate the selected cost items. In
    addition, the auditors sometimes did not explain sufficiently how they
    determined that a cost met all the referenced criteria.

    DCAA and GAS Guidance on Working Paper Documentation. The DCAM
    4-406a(2) provides that routine audit conclusions may be sufficiently
    documented by reference and extraction of pertinent information. The DCAM
    also recommends that copies of contractor financial records and documents be
    kept to the minimum necessary to support the information obtained and the
    conclusions reached. We agree with DCAA that it is unnecessary to include
    copies of all contractor documents examined in the audit file; however, the
    transactions reviewed must be adequately described along with the criteria used
    to review them. At times, the simplest and most efficient documentation may
    be copies of contractor documents if already provided. Otherwise, the auditor
    must be sure to fully describe all pertinent information from the contractor
    document.

    The GAS requires that working papers “contain sufficient information to enable
    an experienced auditor having no previous connection with the audit to ascertain
    from them the evidence that supports the auditors’ significant conclusions and
    judgments. ” An audit conclusion that there are no questioned costs or that all
    costs are allowable, allocable, and reasonable is just as significant as one that
    identifies questioned costs. Therefore, those conclusions must be adequately
    explained and supported. An audit conclusion that costs are unallowable also
    must sufficiently explain why they are unallowable. That conclusion usually
    requires that additional information be provided. In general, the audit file
    should also contain copies of documents supporting questioned costs. Having
    copies readily available for reference, or to provide to others, speeds up
    discussions at meetings or negotiations.

    Adequacy of Documentation. At seven audit offices, audit files contained
    working paper documentation that did not comply with GAS requirements. In
    general, auditors did not adequately document the specific criteria used to
    evaluate the selected cost items. For example, the auditor referenced a FAR
    clause, but did not specify the various criteria within the clause that needed to
    be met. Many of the FAR clauses contain multiple criteria, and to demonstrate
    that all applicable criteria were considered, the auditor should have separately
    referenced the criteria in the working papers. A complete listing of the all the
    criteria used, however, is not sufficient documentation. For example, at one
    audit office, an auditor reviewing help wanted advertising invoices documented
    that the costs were reviewed for allowability by referencing FAR 3 1.20534,
    “Recruitment costs. n The supporting documentation did not include sufficient
    details for us to determine how the auditor concluded that the various criteria in
    FAR 3 1.20534 were not applicable and, therefore, that the costs were
    allowable.

    In addition to basic information about the invoice such as dollar amount,
    vendor, and date, the working papers should have contained a brief description

                                        15
Finding B. Audit Procedures and Analssis of Indirect Costs

      of the advertised position and the project or indirect job for which the employee
      was needed. The evaluator needed the additional information to determine that
      the DCAA auditor properly concluded that the advertisement was for personnel
      required to perform contractual obligations under Government contracts. That
      requirement is the first of six criteria under FAR 3 1.20534. The auditor
      should use the six criteria to determine whether costs are unallowable. The
      other criteria are:

             o specific positions or classes of positions are not described;

              o cost is excessive relative to the number and importance of the
      positions or to industry practices;

             o the advertisement includes material that is not needed for recruitment
      purposes;
            o the advertisement is designed to pirate personnel from another
      Government contractor; and

             o the advertisement is in color.

      The auditor should have documented how the review covered all of the criteria
      and how the auditor concluded that the costs were allowable. Adequate
      documentation does not mandate that copies of all reviewed documents be kept
      in the audit files. Sufficient documentation requires only that the working
      papers adequately describe what was reviewed and how the auditor determined
      that the costs were acceptable.

      At that audit office, the documentation was so inadequate that we found it
      difficult to conclude that the overall incurred cost audit coverage was sufficient.
      Subsequently, we reviewed additional audit files and further discussed the
      deficiencies with the audit managers. As a result of the second review, we
      concluded that the audit work, in total, could be considered sufficient; however,
      the documentation in the audit files needed substantial improvement.

      Electronic Working Papers. On May 1, 1997, the DCAA staff briefed us on
      their initiative to implement tailored electronic working papers. The DCAA
      believes that by computerizing working papers, providing a template that can be
      tailored to the auditor’s requirements, and by changing certain standard
      procedures on the use of audit programs DCAA auditors will create more
      efficient, effective working papers that result in improved and more meaningful
      documentation. We generally agree; however, computerization of working
      papers alone will not necessarily improve documentation.


Professional Skepticism

      Under GAS and American Institute of Certified Public Accountants, Statements
      on Auditing Standards (SAS) No. 1, “Due Care in the Performance of Work,”
      the auditor is required to exercise due professional care. In April 1997, the
      American Institute of Certified Public Accountants issued SAS No. 82,
      “Consideration of Fraud in a Financial Statement Audit.” Appendix B of SAS

                                           16
                   Finding B. Audit Procedures and Analysis of Indirect Costs

    No. 82 amends SAS No. 1, section 230. The amendment expands the
    discussion of professional care with the objective of heightening the auditor’s
    awareness of the need for professional skepticism throughout the conduct of the
    audit. Specifically, professional skepticism is defined as “an attitude that
    includes a questioning mind and a critical assessment of audit evidence. n The
    amendment also requires that an auditor “neither assumes that management is
    dishonest nor assumes unquestioned honesty. In exercising professional
    skepticism, the auditor should not be satisfied with less than persuasive evidence
    because of a belief that management is honest. n SAS No. 82 is effective for
    audits of financial statements for periods ending on or after December 15, 1997.
    Earlier implementation is allowed, and we encourage the DCAA to promptly
    issue guidance to its regional and field audit offices to explain the revised
    definitions. The additional guidance should help improve DCAA auditor
    analyses of contractor claimed costs.


Summary

    Assessing a contractor as low risk for internal controls (control risk) affects the
    amount of transaction testing (testing of details) that needs to be performed.
    The low-risk rating should not significantly alter the depth of analysis or
    evidence required when reviewing the selected individual transactions to provide
    overall adequate audit coverage. The auditor’s inherent risk assessment for
    certain cost accounts also helps determine the amount of transaction testing, not
    the nature of the analysis. The DCAA has increased the detection risk
    associated with many of its indirect cost audits by not selecting an appropriate
    auditing procedure, misapplying an appropriate procedure, performing
    incomplete analyses, or misinterpreting audit results. Increasing the detection
    risk increases the risk that DCAA auditors will not identify significant
    unallowable costs. The minimal amount of transaction testing resulting from
    assessing a contractor as low risk makes it critical that audits be performed with
    attention to due professional care and professional skepticism. By revising audit
    guidance on statistical and nonstatistical sampling and providing guidance on
    professional skepticism and critical analysis of transactions, the DCAA can
    improve its performance of indirect cost audits.


Management Comments              on Sampling Approach and
Evaluation Response

    DCAA Comment. The DCAA disagreed that excluding items under a set
    dollar amount influences the accuracy of the statistical sampling results. The
    DCAA stated that in the cited cases, the auditors decided to exclude dollar
    amounts below a certain amount because of a low risk that there would be
    significant unallowable costs found in these items.

    Evaluation Response. We have revised the wording relating to this section of
    the report. However, we disagree that an auditor should decide to exclude
    certain dollar items because of a belief that significant unallowable costs will not
    be found. Before the auditor can make that determination, the auditor must

                                         17
Finding B. Audit Procedures and Analysis of Indirect Costs

      calculate the percentage of dollars attributable to the low dollar items in the
      universe. If the low dollar items make up a significant percentage of the
      universe dollars, then they should still be included. The working papers did not
      document that the auditor performed this step prior to deciding to exclude the
      low dollar items from the sample.


Recommendations,          Management           Comments,       and Evaluation
Response

      Revised Recommendation. As a result of management comments, we revised
      draft Recommendation B. 1.

      B. We recommend that the Director, Defense Contract Audit Agency:

               1. Revise audit guidance and associated training on establishing
      appropriate reliability goals for statistical sampling to be used while
      performing incurred cost audits at major contractors. Revised guidance
      should emphasize an analytical approach to setting the appropriate
      reliability goals to determine the sample size needed for gathering sufficient
      audit evidence.

      DCAA Comment. DCAA nonconcurred with our recommendation directing
      use of a confidence level of no less than 90 percent and a precision of no less
      than 10 percent. DCAA viewed the draft recommendation as an impractical
      requirement. DCAA stated that the audit resource requirements would prove to
      be overwhelming and establishment of specific precision criteria would
      eliminate auditor judgment from the sampling process. Finally, DCAA stated
      that the benefits derived from the tighter precision calculations would simply not
      be worth the increased cost in time and effort.

      DCAA proposed an alternative solution involving the use of informal “Rules of
      Thumb” that now allow auditors in instances of low risk to use a 70 percent
      confidence level with a 45 percent precision level. DCAA stated that they
      intend to develop a more analytical approach for auditors to use in determining
      sample sizes and re-emphasize the current DCAM guidance found in appendix B
      on determining appropriate sample sizes.

      Evaluation Response. Although the DCAA nonconcurred with our draft
      recommendation, their proposed alternative solution satisfies the intent of our
      recommendation. Therefore, we have revised our draft recommendation and
      accept their proposed alternative as being responsive.

             2. Revise Defense Contract Audit Manual, chapter 4 and
      appendix B, to permit greater flexibility in the exercise of auditor judgment
      on the use of nonstatistical sampling for transactional testing. Revised
      guidance should include guidelines on using purposeful or judgment
      sampling to select indirect cost account transactions to be reviewed at low-
      risk contractors.



                                          18
               Finding B. Audit Procedures and Analysis of Indirect Costs

DCAA Comment. DCAA nonconcurred with this draft recommendation.
DCAA gathered data on the types of sampling actually performed in the 10
DCAA audits covered by our evaluation and concluded that the vast majority of
accounts audited were evaluated using judgmental sampling. Therefore, DCAA
believes that its existing policy provides its field auditors with adequate
flexibility in the use of judgmental sampling and that the auditors make use of
this flexibility.

Evaluation Response. We disagree that the.current DCAA guidance allows the
auditor flexibility in determining how to select transactions to be tested. For
instance, DCAM chapter 4, section 605a states, “Because of its many
advantages, including objectivity and overall defensibility, statistical
(probability) sampling will be used, if feasible, wherever an audit involves tests
or selected transactions or items in order to express an opinion regarding the
entire area (universe) from which the selection was made. If statistical sampling
is not used in these circumstances, an explanation should be given in the
working papers. n Appendix B, Section 202b also states, “Statistical sampling is
preferred because of its advantages including objectivity, overall defensibility,
and the risk of sampling error can be measured.” We believe the quoted DCAA
guidance is fairly strict in requiring the auditor to use statistical sampling. The
fact that the majority of the accounts were reviewed by use of judgmental
sampling is because of conflicting guidance in other sections of the DCAM.
For instance Appendix B, section 202 a states, “. . .Therefore, auditors will
normally use either statistical or judgmental (nonstatistical) sampling in their
audits. The method selected depends on which is the most cost effective means
of satisfying the audit objective and supporting favorable resolution of any
reported conditions. n In addition, DCAM chapter 4, section 603, “Scope and
Degree of Testing,” provides guidelines for determining items to be selected for
testing and the extent of the examination. One guideline is that all transactions
of an unusual or sensitive nature should be reviewed. This can only be satisfied
through judgmental sampling. The first guideline of considering all large
transactions for review could be satisfied through either judgmental or stratified
statistical sampling.

We still believe that additional clarifying guidance would be useful to the field
auditors. By revising its existing guidance, DCAA would eliminate any
confusion between the various DCAM sections and update the guidance to better
reflect actual field implementation. We request DCAA reconsider its comments
in responding to the final report and agree to revise current guidance to include
more specific guidelines for when judgmental versus statistical sampling is
appropriate.

        3. Issue interim guidance immediately to the regional and field audit
offices implementing the Statements on Auditing Standards No. 82,
“Consideration of Fraud in a Financial Statement Audit,” in particular,
the guidance in the Defense Contract Audit Manual that relates to due
professional care and professional skepticism. The interim guidance should
address how to implement the revised auditing standard on due
professional care and should be incorporated promptly into the next version
of the Defense Contract Audit Manual.

DCAA Comment. DCAA nonconcurred and disagreed with the draft finding.
DCAA did agree to forward the report with our findings and concerns to each


                                     19
Finding B. Audit Procedures and Analysis of Indirect Costs

      DCAA region and field audit office with direction to correct any related
      weaknesses in their related audits or auditor performance.

      Evaluation Response. Although DCAA nonconcurred with our draft
      recommendation, subsequent DCAA actions are fully responsive. On March
      26, 1998, DCAA Headquarters issued an MRD [reference 98-PAS-044(R)] that
      provided some additional information on SAS 82 revisions. Recently, DCAA
      issued the July 1998 version of the DCAM that included the revised audit
      guidance required by SAS 82.




                                         20
           Finding C. Recognition and Reporting of
           Unallowable Costs Subject to Penalties
           The DCAA did not properly recognize or recommend disallowance of
           costs that 10 U.S.C 2324(e), 41 U.S.C. 256(e) (see Appendix C), and
           Federal regulations define as expressly unallowable for reimbursement
           under Government contracts. In addition, DCAA did not always
           properly identify and report that expressly unallowable costs were
           subject to the penalty provisions of 10 U.S.C. 2324(b) and 41 U.S.C.
           256(b). Nonrecognition or nonreporting of unallowable costs subject to
           penalties occurred because DCAA auditors did not properly implement
           the existing audit guidance. Further, existing DCAA guidance is not
           specific on how to identify and recognize those costs. Because DCAA
           did not recognize or properly report on unallowable costs subject to
           penalty, the Government has paid and may continue to pay contractors
           for costs prohibited from reimbursement by Federal statutes and
           regulations.


Audit Guidance

    Unallowable Indirect Costs. The standard DCAA incurred cost audit
    programs covering indirect costs require that the auditor determine the
    allowability, allocability, and reasonableness of the costs selected for review.
    Most standard audit programs do not cover specific cost items in detail;
    therefore, the auditor must determine which FAR or DFARS clause is
    applicable and develop suitable audit steps and procedures to review the costs
    for acceptability. For certain costs, such as employee travel and relocation,
    DCAM chapter 7, “Selected Areas of Cost,” provides additional guidance for
    the auditor to consider during the review. In some cases, the applicable FAR or
    DFARS clause has been revised since the cost was incurred; therefore, the
    auditor must be certain to use the criteria and audit guidance applicable at the
    time the cost was incurred.

    Expressly Unallowable Costs. Audit guidance on expressly unallowable costs
    is in DCAM chapter 6, section 6. Specifically, DCAM 6-608.3a(2) provides
    some examples of costs declared expressly unallowable by Federal statutes or
    regulations. Examples of costs include entertainment expenses, fines and
    penalties, contributions, interest, losses on other contracts, certain types of
    advertising and business meetings, and Federal income taxes. DCAM
    6-608.3a(2) does not specify all costs that could be considered expressly
    unallowable under CAS 405, 10 U.S.C. 2324(e), 41 U.S.C. 256(e), or FAR
    31.205. The DCAM includes FAR subpart 31.2 in its entirety as appendix A,
    section A-300; and DFARS subpart 231 as appendix A, section A-400.

    Penalty for Expressly Unallowable Costs. The auditor has the responsibility
    to determine whether any costs claimed by the contractor in the incurred cost
    submission are expressly unallowable and, therefore, subject to the penalty
    provided for in 10 U.S.C. 2324(b) and 41 U.S.C. 256(b) as implemented by
    FAR 42.709. The DCAM 6-608.4d, “General Responsibilities, Wstates that the

                                           21
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      auditor is responsible for making recommendations concerning the
      appropriateness of penalties. The guidance provides for auditor assistance in the
      computation of the paid portion of the disallowance for purposes of interest
      computation. The DCAM also makes it clear that the auditor has no authority
      to determine whether a penalty is to be imposed, impose the penalty, or recover
      a penalty against subsequent vouchers. Reporting requirements are discussed in
      DCAM 6-608.4f@)-(7) and 10-500.

      The auditor is required to expand the audit report to specifically identify
      questioned costs that are subject to the level-one and -two penalties. The report
      exhibit note should contain enough detail to explain why the level-one penalty is
      being recommended. For recommendation of a level-two penalty, the report
      exhibit note should describe the specific prior determination or mutual
      agreement that shows that the contractor should have known the cost was
      unallowable. The main reporting objective is to provide the CO with enough
      information to determine which unallowable costs are subject to penalties and to
      allocate the penalties to the applicable contracts. A separate exhibit should be
      included identifying questioned costs by penalty level, amount, and percent of
      base subject to penalty. To compute the estimated percent of base subject to
      penalty or the cost impact, the auditor must obtain from the contractor a list of
      all contracts that contain or should contain the applicable penalty clause.

      Waiver of Penalty. A reduced reporting requirement is explained in DCAM
      6-608.4f(7) to be applied when the auditor identifies unallowable costs subject
      to penalties with a cost impact of $10,000 or less. In cases where it is obvious
      that the waiver applies, the auditor needs only to include information in the
      report to alert the CO that there are costs subject to penalties and that the cost
      impact is less than the $10,000 waiver threshold. The calculation supporting
      the auditor’s conclusion that the penalty waiver applies should be documented in
      the working papers. The DCAM provides a sample paragraph that can be
      adapted to the auditor’s reporting situation. The auditor is also required to
      coordinate with the CO before issuing the report to ensure that the report will
      include the information the CO needs to make a determination.


Recognizing and Reporting Unallowable Costs Subject to
Penalties

      Adequacy of Reporting. For 8 of the 10 audit reports reviewed, DCAA did
      not properly recognize or report costs that were expressly unallowable and,
      therefore, subject to penalties. Significant errors occurred when DCAA did not
      recognize or report those costs, which may have affected the ability of the CO
      to properly comply with Federal statutes and FAR. However, when the CO
      should have been able to use the audit report information to implement the
      requirements of the Federal statutes and FAR, we considered the reporting error
      minor even if the auditor did not follow existing DCAM guidance.

      For example, one incurred cost       audit report contained several reporting errors.
      Minor reporting errors included      using subcontracts in the calculation of the cost
      effect, failing to clearly specify   in the applicable notes to the report exhibits that
      questioned costs were expressly      unallowable, and failing to identify which level

                                              22
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      of the penalty was appropriate. The significant deficiencies included not
      reporting expressly unallowable costs as such, improperly reporting unallowable
      costs as expressly unallowable, and not reporting costs identified as expressly
      unallowable in the amount subject to the penalty. Specifically, the auditor did
      not properly identify or report certain costs that the contractor screening process
      identified as unallowable after the contractor had submitted the certified
      incurred cost submission and the DCAA audit had ‘started. Any expressly
      unallowable cost found by the contractor after the start of the audit is subject to
      penalties. Therefore, the auditor should have determined which costs were
      expressly unallowable and subject to the penalties and reported those costs as
      such in the audit report.

      That audit report identified $12,641 from the contractor internal review process
      as unallowable; however, the report states, “Since the dollar impact of this
      adjustment is insignificant, we have not included the costs as part of the penalty
      computations for unallowable costs. ” First, we do not agree that total costs of
      $12,641 are expressly unallowable as detailed in the report. Of the $3,150
      relating to new employee referral bonuses, $750 is a duplicate payment. While
      we agree that the $750 is unallowable because it duplicates a payment made to
      another employee, we could identify no FAR clause or reference in the Federal
      statutes that would make this cost expressly unallowable. In addition, we
      disagree with the audit office’s decision to exclude the costs that were expressly
      unallowable from the calculation of the amount subject to penalty. The auditor
      does not have the authority to exempt a cost from the penalty. Only the CO can
      make that determination. Moreover, the audit report identified roughly
      $680,000 of expressly unallowable costs subject to a level-one penalty. Once
      the audit has identified sufficient expressly unallowable costs for the cost impact
      to be in excess of the $10,000 waiver threshold, then all identified expressly
      unallowable costs must be shown as such and included in the amount subject to
      penalty. If the total cost impact of the expressly unallowable costs is considered
      insignificant, the audit report should follow the reduced reporting requirement
      suggested by DCAM 6-608.4f(7). To do otherwise would conflict with the
      requirements of the Federal statutes.

      The same audit report also did not classify certain costs that were expressly
      unallowable as such and subject to penalty. For example, in the audit report
      note, advertising costs of about $1,500; excess airfare of $4,710; contributions
      of about $2,500; and entertainment costs of $520 were not shown as expressly
      unallowable, even though all those costs are clearly designated as such by 10
      U.S.C. 2324(e) and FAR 31.205.

      At another office, the audit report did not identify $14,400 for market
      fluctuation in a stock appreciation account as subject to penalties. This cost is
      expressly unallowable according to FAR 31.205-6(i)(3), which was in effect at
      the time. Although Federal statutes and FAR help auditors to determine which
      costs are expressly unallowable, auditors have problems in interpreting the
      applicable regulations. More comprehensive guidance that specifies which costs
      are expressly unallowable and when they are expressly unallowable would help
      the auditors and others who must make determinations. More comprehensive
      guidance would also help ensure that costs are treated more consistently by all
      auditors and COs.

      Unallowable Costs Identified, But Not Reported. In some audits, the auditor
      showed unallowable costs in the working papers, but did not report the costs as

                                           23
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      such. Those costs may or may not have been specifically identified in the
      working papers as expressly unallowable, but the auditor should have
      recognized them as such. One example is reimbursement for alcoholic
      beverages, which is expressly unallowable under FAR 3 1.20514 (Entertainment
      costs) and 10 U.S.C. 2324(e). At one audit office, the auditor determined that
      the amount would not be enough to affect the indirect rate calculation. The
      auditor wrote the amount off as insignificant. This approach results in the
      auditor, instead of the CO, deciding to waive the applicable penalty. Only the
      CO has the authority to waive the penalty under the conditions provided for in
      the Federal statutes and regulations. Therefore, if the auditor identifies
      unallowable costs subject to penalties during the audit, those costs must be
      included in the audit report. If the total cost impact of the expressly
      unallowable costs is less than the $10,000 waiver threshold, then the auditor
      must use the minimum reporting requirements suggested in the DCAM. The
      auditor does not need to show the costs as questioned in the audit report body or
      exhibits if the dollar amount would not affect the indirect rates. However, the
      auditor is required to report the costs for penalty consideration. Even though
      the costs may not be significant, it is important to properly identify and report
      the costs as expressly unallowable to permit the CO the chance to officially
      notify the contractor that the costs are considered expressly unallowable. Thus,
      if the contractor improperly claims the costs again, the costs would be subject to
      the level-two penalty. The Government must preserve the right to impose the
      level-two penalty for repeat occurrences. Therefore, the DCAA must report all
      unallowable costs subject to penalties with no consideration given to dollar
      amount involved.

      Contractor Documentation Provided. At four contractor locations, DCAA
      had difficulty determining whether a cost was unallowable or expressly
      unallowable and subject to penalty because of the amount and type of supporting
      documentation provided by the contractor. The FAR 3 1.201-2(d) provides that
      the contractor is responsible for appropriately accounting for costs and
      maintaining adequate supporting documentation to show that costs claimed have
      been incurred, are allocable to the contract, and comply with applicable
      regulations. This FAR clause also specifically permits the CO to disallow all or
      part of a claimed cost that is inadequately supported. For professional and
      consultant service costs, FAR 31.205-33(f) specifically states what supporting
      documentation is required. The contractor benefits by providing documentation
      only until the auditor determines that a cost is unallowable. If the contractor
      provides additional documentation, the auditor may decide that the cost is
      expressly unallowable and subject to penalties. For example, during a DCAA
      audit, one contractor internal review process found that $56,240 relating to a
      special services allocation from a contractor group entity should not have been
      claimed. Because the contractor agreed that the costs were unallowable, DCAA
      did not request documentation. The costs were for employee morale and
      welfare items and, therefore, could have contained costs that were expressly
      unallowable. Without documentation, the auditor could not make this
      determination. Therefore, DCAA, in effect, permitted the contractor to
      circumvent the intent of the Federal statutes. Adequate support for claimed
      costs is essential to permit the auditor and CO to fully comply with the intent of
      the Federal statutes. The Federal statutes should be amended to include the lack
      of adequate support as a basis for assessing a level one penalty. We are
      planning to draft a suggested revision to the Federal statutes and forward it for
      congressional consideration.


                                          24
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      Penalty Waiver Applied. For one contractor location, the DCAA audit report
      contained inappropriate comments relating to the imposition of penalties. The
      audit report stated that the contractor had claimed the costs in error and,
      therefore, the penalty should not be applied. Although the guidance in DCAM
      6-608.4d states that the auditor can make recommendations on the
      appropriateness of imposing penalties, Federal statutes and FAR 42.709 do not
      delegate that authority to the auditor. According to FAR 42.709, the auditor is
      responsible for recommending to the contracting officer which costs may be
      unallowable and subject to penalties. The FAR does not allow the auditor to
      recommend that a cost may be expressly unallowable but not subject to the
      penalty. The Federal statutes are clear that the responsibility for determining
      whether to impose the penalty belongs to the CO. In addition, the waiver of the
      penalty is allowed when the $10,000 threshold waiver is exceeded, only if two
      conditions are met: first, the contractor must have inadvertently claimed the
      costs; second, the contractor has to satisfy the CO that it has in place policies
      and procedures and an effective internal control system to assure that
      unallowable costs are not claimed. Therefore, the auditor should not make the
      recommendation in the incurred cost audit report. The audit report should
      provide factual information concerning the circumstances under which the
      expressly unallowable costs were claimed. Based on that information, the CO
      can determine whether claiming the cost was an error or not. If the CO needs
      more advice or information to determine whether to impose the penalty, the CO
      may request additional information from the auditor. The DCAM needs to be
      revised to clarify that the auditor may not determine or state that a penalty is not
      applicable because an expressly unallowable cost was claimed inadvertently.


Summary

      Current Federal statutes and regulations require that in most circumstances when
      a contractor claims expressly unallowable costs, a penalty should be assessed.
      The DCAA audits are the starting point for compliance with the laws and
      regulations. Therefore, when DCAA does not recognize and report expressly
      unallowable costs, the ability of DOD to properly comply with Federal statutes
      and regulations is compromised. By clarifying guidance on reporting
      requirements and providing a specific list of expressly unallowable costs to the
      auditors, the DOD will improve compliance. Better compliance will help
      motivate contractors with adequate screening processes and internal control
      systems to properly maintain them while those with inadequate policies and
      procedures continue to improve their screening processes for elimination of
      unallowable costs. In turn, DOD can more effectively use its limited resources
      to ensure that contractors are paid only for costs that are eligible for
      reimbursement under Government contracts.


Recommendation,           Management            Comments,       and Evaluation
Response

      Revised Recommendation. As a result of management comments, we revised
      draft Recommendation C. 1.

                                           25
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      C. We recommend that the Director, Defense Contract Audit Agency:

              1. Revise pertinent sections of the Defense Contract Audit Manual
      such as Chapter 7, “Selected Areas of Cost,” where guidance is provided in
      auditing specific types of costs, to include a statement highlighting when the
      cost is considered an expressly unallowable cost subject to a level-one
      penalty under Title 10, United States Code, Section 2324; Title 41, United
      States Code, Section 256; Federal Acquisition Regulation subpart 31.205;
      and Defense Federal Acquisition Regulation Supplement subpart 231.205.

      DCAA Comment. DCAA nonconcurred with our draft recommendation to
      revise DCAM, chapter 6. DCAA stated that DCAM already refers to the
      specific CAS and FAR sections that define and explain what are expressly
      unallowable costs and to further expand the coverage and examples would be an
      unjustified duplication of the existing FAR coverage and other audit guidance.
      In addition, DCAA stated that the FAR cost principles change frequently and
      are quite complex; therefore, implementing our draft recommendation, as well
      as, updating the information in other sections of DCAM, would be time-
      consuming and costly without a corresponding benefit.

      Evaluation Response. We have considered the comments and revised our draft
      recommendation to address their concern about efficient and effective use of
      limited resources. In reviewing the example (executive compensation) that
      DCAA provided in their comments, we found that DCAM chapter 6, section 6-
      414.9~ provides specific guidance to the auditor on when executive
      compensation is unallowable and subject to the penalty clause. Specifying when
      a cost is considered unallowable and subject to the penalty clause in the DCAM
      section that already provides guidance on that specific cost will make it easy for
      DCAA to update as needed. The wording of the revised recommendation also
      reflects our concern that DCAA auditors need clear guidance on when specific
      costs are unallowable and subject to the penalty clause so that consistent
      treatment of costs can occur. Please comment on the revised recommendation
      in response to our final report.

             2. Revise guidance in Defense Contract Audit Manual chapter 6,
      section 6, to clarify that the auditor must report all unallowable costs
      subject to penalties identified during the audit, regardless of dollar amount.

      DCAA Comment. DCAA concurred and stated that the recommended
      guidance will be added to the DCAM by 31 July 1998.

      Evaluation Response. The DCAA planned actions are fully responsive.

              3. Revise Defense Contract Audit Manual chapter 6, section 608.4d,
      to clarify that the auditor should make recommendations concerning the
      appropriateness of penalties only when the contracting officer specifically
      requests that assessment. The assessment of whether a penalty is
      appropriate should be made independent of and after the issuance of the
      incurred cost audit report.




                                          26
Finding C. Recognition and Reporting of Unallowable Costs Subject to Penalties

      DCAA Comment. DCAA concurred and agreed to revise DCAM 6-608.4d to
      more clearly reflect the provisions of FAR 42.709-2(b).

      Evaluation Response. The DCAA planned action is considered responsive.




                                      27
Part II - Additional Information
Appendix A. Evaluation Process

Scope and Methodology

    We conducted this evaluation from November 1996 through April 1997. From
    November 1996 through March 1997, we visited eight DCAA audit offices
    responsible for major contractors. To accomplish our objectives, we reviewed
    the incurred cost audit coverage of major contractors at each DCAA audit
    offices visited. Our evaluation included reviewing:

           o the audit office’s risk assessment of the contractor’s internal control
             system for charging indirect costs;

           o the most recently completed incurred cost audit report and selected
             associated indirect cost audit assignments for the contractor entity;

           o associated audits, including CAS 405 reviews and other CAS
              noncompliance reviews; and

           o requirements and program plan information relating to the completion
             of internal control systems reviews and incurred cost audits.

    Gur review concentrated on identification of unallowable costs and proper
    recognition and reporting of unallowable costs subject to penalties.

    We judgmentally selected the eight DCAA offices and reviewed nine contractor
    entities based on information available in the DCAA Management Information
    System. The criteria we used in the selection process included the most current
    contractor year audited, the amount of questioned costs, and the number of
    hours expended. We selected at least one audit office from each of the five
    regions. We varied the type of audit office visited by choosing both resident
    audit offices and suboffices of a branch office. We reviewed 10 final incurred
    cost audit reports and 73 audit assignments. Information on specific audit
    offices visited and audit reports and audit assignments reviewed is available on
    request.

    DoD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPIL4, the DOD has established 6
    DOD-wide corporate level performance objectives and 14 goals for meeting
    these objectives. This report pertains to achievement of the following objective
    and goal.

           o Objective: Fundamentally reengineer the Department and achieve a
             21st century infrastructure. Goal: Reduce costs while maintaining
             required military capabilities across all DOD mission areas. (DoI%6)




                                        30
                                              Appendix A. Evaluation Process



DOD Functional Area Reform Goals. Most major DOD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals.

       0   Acquisition Functional Area. Objective: Fostering Partnerships.
           Goal: With no top-line budget change, achieve annual defense
           procurement of at least $54 billion toward a goal of $60 billion in
           2001. (ACQ-2.1)

       0   Acquisition Functional Area. Objective: Internal Reinvention.
           Goal: Minimize cost growth in major defense acquisition programs
           at no greater than 1 percent annually. (ACQ-3.4)

General Accounting Office High Risk Area. The General Accounting Office
has identified several high risk areas in the DOD. This report provides coverage
of the Defense Contract Management high risk area.

Contacts During the Evaluation. We visited or contacted individuals and
organizations within the DOD. Further details are available on request.




                                    31
Appendix B. Summary of Prior Coverage

   During the last 5 years, the Assistant Inspector General for Audit Policy and
   Oversight, Office of Inspector General, DOD, issued three reports on topics
   pertinent to issues in our evaluation.

   Report No. 95009, “Report on the Oversight Review of the Defense
   Contract Audit Agency Evaluations of Contractor Compensation Systems,”
   was issued July 3, 1995. Of 21 audits of contractor compensation systems, 18
   were inadequate. Auditors did not report $700,000 in unreasonable executive
   compensation because offsets were allowed without justification, inadequate
   audit steps were performed, and proper fringe benefits rates were not applied to
   unreasonable compensation costs. Also, the DCAA and Defense Logistics
   Agency used different methods for offsetting compensation between labor
   grades.

   The Director, DCAA, agreed with our recommendations to:

           o review compensation system reviews where unreasonable executive
   compensation was offset and determine whether supplemental reports should be
   issued;

           o require the Assistant Director for Operations and the Regional
   Directors to monitor the performance of compensation system reviews;

           o develop a self-study course on compensation system reviews and
   require the auditors to complete the course prior to starting a compensation
   system review; and

          o include more specific guidance for performing compensation system
   reviews in the DCAM.

   Report No. 95001, “Oversight Review of the Defense Contract Audit
   Agency Reporting of Cost Questioned Subject To Penalties,” was issued
   October 18, 1994. Of 72 incurred cost audits, 27 did not adequately justify
   recommending penalty assessments and 61 did not comment on the adequacy of
   the contractor screening process for identifying unallowable costs. In addition,
   none of the 13 reports recommending a second-level penalty assessment were
   referred for investigation. The report recommended that audit guidance require
   the report to indicate a level-one or level-two penalty, to adequately explain the
   basis of the disallowance, and to include comments on the contractor failure to
   adequately screen the submission for expressly unallowable costs. The report
   also recommended guidance on submitting a fraud referral based on a level-one
   or -two assessment.

   The Director, DCAA, agreed with or provided acceptable alternatives to the
   recommendations.

   Report No. 92-008, “Report on Oversight Review of the Adequacy of the
   Defense Contract Audit Agency Coverage of Internal Controls At Major
   Contractors,” was issued June 29, 1992. The accuracy of the Internal Control
   Questionnaire needed to be improved as a result of incorrectly answered

                                       32
                                    Appendix B. Summary of Prior Coverage



questions and answers that were inadequately supported by referenced working
papers. The questionnaires were generally completed by inexperienced
auditors, and supervisors generally did not review them to ensure accuracy.
The report recommended that DCAA ensure that supervisors closely monitor
subordinates’ work, improve integration of the Internal Control Questionnaire
with the vulnerability assessment procedures, and change the Internal Control
Questionnaire to enhance the accuracy and effectiveness of the audit planning
process. Improved integration of the Internal Control Questionnaire and the
vulnerability assessment procedures will highlight identified control weaknesses
and risks to facilitate proper planning and audit coverage. The report also
recommended that DCAA issue guidance to better focus reporting on internal
control weaknesses to prevent recurring questionable costs.

The DCAA concurred with all the recommendations and took action to correct
the deficiencies.




                                    33
Appendix C. Federal Statutes on Allowable Costs

                           UNITED STATES CODE ANNOTATED
                                TITLE 10. ARMED FORCES
                         SUBTITLE A--GENERAL MILITARY LAW
                     PART IV--SERVICE SUPPLY, AND PROCUREMENT
                       CHAPTER 137--PROCUREMENT GENERALLY

        Section 2324. Allowable costs under defense contracts’

        (a) Indirect cost that violates a FAR cost principle.--The head of an agency
        shall require that a covered contract provide that if the contractor submits to the
        agency a proposal for settlement of indirect costs incurred by the contractor for
        any period after such costs have been accrued and if that proposal includes the
        submission of a cost which is unallowable because the cost violates a cost
        principle in the Federal Acquisition Regulation or applicable agency supplement
        to the Federal Acquisition Regulation, the cost shall be disallowed.

        (b) Penalty for violation of cost principle.--(l) If the head of the agency
        determines that a cost submitted by a contractor in its proposal for settlement is
        expressly unallowable under a cost principle referred to in subsection (a) that
        defines the allowability of specific selected costs, the head of the agency shall
        assess a penalty against the contractor in an amount equal to--

                       (A) the amount of the disallowed cost allocated to covered
        contracts for which a proposal for settlement of indirect costs has been
        submitted; plus

                      (B) interest (to be computed based on provisions in the Federal
        Acquisition Regulation) to compensate the United States for the use of any
        funds which a contractor has been paid in excess of the amount to which the
        contractor was entitled.

                (2) If the head of the agency determines that a proposal for settlement of
        indirect costs submitted by a contractor includes a cost determined to be
        unallowable in the case of such contractor before the submission of such
        proposal, the head of the agency shall assess a penalty against the contractor, in
        an amount equal to two times the amount of the disallowed cost allocated to
        covered contracts for which a proposal for settlement of indirect costs has been
        submitted.

        (c) Waiver of penalty .--The Federal Acquisition Regulation shall provide for a
        penalty under subsection (b) to be waived in the case of a contractor’s proposal
        for settlement of indirect costs when--

                (1) the contractor withdraws the proposal before the formal initiation of
        an audit of the proposal by the Federal Government and resubmits a revised
        proposal;


’ Current through Public Law 105-15, approved 5-15-97

                                                34
                              Appendix C. Federal Statutes on Allowable Costs

         (2) the amount of unallowable costs subject to the penalty is
insignificant; or

         (3) the contractor demonstrates, to the contracting officer’s satisfaction,
that--

               (A) it has established appropriate policies and personnel training
and an internal control and review system that provide assurances that
unallowable costs subject to penalties are precluded from being included in the
contractor’s proposal for settlement of indirect costs; and

               (B) the unallowable costs subject to the penalty were
inadvertently incorporated into the proposal.

(d) Applicability of contract disputes procedure to disallowance of cost and
assessment of penalty.--An action of the head of an agency under subsection (a)
or @I)--

       (1) shall be considered a final decision for the purposes of section 6 of
the Contract Disputes Act of 1978 (41 U.S.C. 605); and

       (2) is appealable in the manner provided in section 7 of such Act (41
U.S.C. 606).

(e) Specific costs not allowable.--(l)        The following costs are not allowable
under a covered contract:

                 (A) Costs of entertainment, including amusement, diversion, and
social activities and any costs directly associated with such costs (such as tickets
to shows or sports events, meals, lodging, rentals, transportation, and
gratuities).

                (B) Costs incurred to influence (directly or indirectly) legislative
action on any matter pending before Congress, a State legislature, or a
legislative body of a political subdivision of a State.

                  (C) Costs incurred in defense of any civil or criminal fraud
proceeding or similar proceeding (including filing of any false certification)
brought by the United States where the contractor is found liable or has pleaded
nolo contendere to a charge of fraud or similar proceeding (including filing of a
false certification).

                (D) Payments of fines and penalties resulting from violations of,
failure to comply with, Federal, State, local, or foreign laws and regulations,
except when incurred as a result of compliance with specific terms and
conditions of the contract or specific written instructions from the contracting
officer authorizing in advance such payments in accordance with applicable
provisions of the Federal Acquisition Regulation.

                (E) Costs of membership in any social, dining, or country club
or organization.

                (F) Costs of alcoholic beverages.


                                         35
Auuendix C. Federal Statutes on Allowable Costs

                      (G) Contributions or donations, regardless of the recipient.

                      (H) Costs of advertising designed to promote the contractor or
      its products.

                     (I) Costs of promotional items and memorabilia, including
      models, gifts, and souvenirs.

                    (J) Costs for travel by commercial aircraft which exceed the
      amount of the standard commercial fare.

                    (K) Costs incurred in making any payment (commonly known as
      a “golden parachute payment”) which is--

                             (i) in an amount in excess of the normal severance pay
      paid by the contractor to an employee upon termination of employment; and

                             (ii) is paid to the employee contingent upon, and
      following, a change in management control over, or ownership of, the
      contractor or a substantial portion of the contractor’s assets.

                      (L) Costs of commercial insurance that protects against the costs
      of the contractor for correction of the contractor’s own defects in materials or
      workmanship.

                     (M) Costs of severance pay paid by the contractor to foreign
      nationals employed by the contractor under a service contract performed outside
      the Untied States, to the extent that the amount of severance pay paid in any
      case exceeds the amount paid in the industry involved under the customary or
      prevailing practice for firms in that industry providing similar services in the
      United States, as determined under the Federal Acquisition Regulation.

                       (N) Costs of severance pay paid by the contractor to a foreign
      national employed by the contractor under a service contract performed in a
      foreign country if the termination of the employment of the foreign national is
      the result of the closing of, or the curtailment of activities at, a United States
      military facility in that country at the request of the government of that country.

                      (0) Costs incurred by a contractor in connection with any
      criminal, civil, or administrative proceeding commenced by the United States or
      a State, to the extent provided in subsection (k).

               (2)(A) The Secretary of Defense may provide in a military banking
      contract that the provisions of paragraphs (l)(M) and (l)(N) shall not apply to
      costs incurred under the contract by the contractor for payment of mandated
      foreign national severance pay. The SeCretary may include such a provision in
      a military banking contract only if the Secretary determines, with respect to that
      contract, that the contractor has taken (or has established plans to take)
      appropriate actions within the contractor’s control to minimize the amount and
      number of incidents of the payment of severance pay by the contractor to
      employees under the contract who are foreign nationals.

                      (B) In subparagraph (A):


                                           36
                            Appendix C. Federal Statutes on Allowable Costs

                       (i) The term “military banking contract” means a contract
between the Secretary and a financial institution under which the financial
institution operates a military banking facility outside the United States for use
by members of the armed forces stationed or deployed outside the United States
and other authorized personnel.

                       (ii) The term “mandated foreign national severance pay”
means severance pay paid by a contractor to a foreign national employee the
payment of which by the payment of which by the contractor is required in
order to comply with a law that is generally applicable to a significant number
of businesses in the country in which the foreign national receiving the payment
performed services under the contract.

                 (C) Subparagraph (A) does not apply to a contract with a
financial institution that is owned or controlled by citizens or nationals of a
foreign country, as determined by the Secretary of Defense. Such a
determination shall be made in accordance with the criteria set out in paragraph
(1) of section 4(g) of the Buy American Act (41 U. S .C. lob-l) and the policy
guidance referred to in paragraph (2)(A) of that section.

         (3)(A) Pursuant to the Federal Acquisition Regulation and subject to the
availability of appropriations, the head of an agency awarding a covered
contract (other than a contract to which paragraph (2) applies) may waive the
application of the provisions of paragraphs (l)(M) and (l)(N) to that contract if
the head of the agency determines that--

                       (i) the application of such provisions to the contract
would adversely affect the continuation of a program, project, or activity that
provides significant support services for members of the armed forces stationed
or deployed outside the United States;

                       (ii) the contractor has taken (or has established plans to
take) appropriate actions within the contractor’s control to minimize the amount
and number of incidents of the payment of severance pay by the contractor to
employees under the contract who are foreign nationals; and

                       (iii) the payment of severance pay is necessary in order to
comply with a law that is generally applicable to a significant number of
businesses in the country in which the foreign national receiving the payment
performed services under the contract or is necessary to comply with a
collective bargaining agreement.

              (B) The head of an agency shall include in the solicitation for a
covered contract a statement indicating--
                       (i) that a waiver has been granted under subparagraph (A)
for the contract; or
                        (ii) whether the head of the agency will consider granting
such a waiver, and, if the agency head will consider granting a waiver, the
criteria to be used in granting the waiver.




                                    37
Appendix C. Federal Statutes on Allowable Costs

                     (C) The head of an agency shall make the final determination
      regarding whether to grant a waiver under subparagraph (A) with respect to a
      covered contract before award of the contract.

              (4) The provisions of the Federal Acquisition Regulation implementing
      this section may establish appropriate definitions, exclusions, limitations, and
      qualifications.

      (f) Required regulations. --( 1) The Federal Acquisition Regulation shall contain
      provisions on the allowability of contractor costs. Such provisions shall define
      in detail and in specific terms those costs which are unallowable, in whole or in
      part, under covered contracts. The regulations shall, at a minimum, clarify the
      cost principles applicable to contractor costs of the following:

                       (A) Air shows.

                       @) Membership in civic, community, and professional
      organizations.

                       (C) Recruitment.

                       (D) Employee morale and welfare.

                     (E) Actions to influence (directly and indirectly) executive
      branch action on regulatory and contract matters (other than costs incurred in
      regard to contract proposals pursuant to solicited or unsolicited bids).

                       (F> Community relations.
                       G) Dining facilities.
                       (W Professional and consulting services, including legal
      services.

                       (I)   Compensation.

                       0     Selling and marketing.

                       @) Travel.

                       (L) Public relations.

                       (M) Hotel and meal expenses.

                       (N) Expense of corporate aircraft.

                       (0) Company-furnished automobiles.

                       (P) Advertising.

                       (Q) Conventions.
              (2) The Federal Acquisition Regulation shall require that a contracting
      officer not resolve any questioned costs until he has obtained--

                                               38
                            Appendix C. Federal Statutes on Allowable Costs

               (A) adequate documentation with respect to such costs; and

               (I%) the opinion of the contract auditor on the allowability of such
costs.

        (3) The Federal Acquisition Regulation shall provide that, to the
maximum extent practicable, the contract auditor be present at any negotiation
or meeting with the contractor regarding a determination of the allowability of
indirect costs of the contractor.

        (4) The Federal Acquisition Regulation shall require that all categories
of costs designated in the report of the contract auditor as questioned with
respect to a proposal for settlement be resolved in such a manner that the
amount of the individual questioned costs that are paid will be reflected in the
settlement.

(g) Applicability of regulations to subcontractors.--The regulations referred to
in subsections (e) and (f)(l) shall require prime contractors of a covered
contract, to the maximum extent practicable, to apply the provisions of such
regulations to all subcontractors of the covered contract.

(h) Contractor certification required.--( 1) A proposal for settlement of indirect
costs applicable to a covered contract shall include a certification by an official
of the contractor that, to the best of the certifying official’s knowledge and
belief, all indirect costs included in the proposal are allowable. Any such
certification shall be in a form prescribed in the Federal Acquisition Regulation.

        (2) The head of the agency or the Secretary of the military department
concerned may, in an exceptional case, waive the requirement for certification
under paragraph (1) in the case of any contract if the head of the agency or the
Secretary--

               (A) determines in such case that it would be in the interest of the
United States to waive such certification; and

               (B) states in writing the reasons for that determination and makes
such determination available to the public.

(i) Penalties for submission of cost known as not allowable.--The submission to
an agency of a proposal for settlement of costs for any period after such costs
have been accrued that includes a cost that is expressly specified by statute or
regulation as being unallowable, with the knowledge that such cost is
unallowable, shall be subject to the provisions of section 287 of title 18 and
section 3729 of title 3 1.

(j) Contractor to have burden of proof.--In a proceeding before the Armed
Services Board of Contract Appeals, the United States Court of Federal Claims,
or any other Federal court in which the reasonableness of indirect costs for
which a contractor seeks reimbursement from the Department of Defense is in
issue, the burden of proof shall be upon the contractor to establish that those
costs are reasonable.

(k) Proceeding costs not allowable.--(l) Except as otherwise provided in this
subsection, costs incurred by a contractor in connection with any criminal, civil,

                                     39
Appendix C. Federal Statutes on Allowable Costs

      or administrative proceeding commenced by the United States or a State are not
      allowable as reimbursable costs under a covered contract if the proceeding (A)
      relates to a violation of, or failure to comply with, a Federal or State statute or
      regulation, and (B) results in disposition described in paragraph (2).

               (2) A disposition referred to in paragraph (l)(B) is any of the following:

                      (A) In the case of a criminal proceeding, a conviction (including
      a conviction pursuant to a plea of nolo contendere) by reason of the violation or
      failure referred to in paragraph (1).

                      (B) In the case of a civil or administrative proceeding involving
      an allegation of fraud or similar misconduct, a determination of contractor
      liability on the basis of the violation or failure referred to in paragraph (1).

                     (C) In case of any civil or administrative proceeding, the
      imposition of a monetary penalty by reason of violation or failure referred to in
      paragraph( 1).

                      (D) A fiil   decision--

                             (i) to debar or suspend the contractor;

                              (ii) to rescind or void the contract; or

                             (iii) to terminate the contract for default;

      by reason of the violation or failure referred to in paragraph (1).

                     (E) A disposition of the proceeding by consent or compromise if
      such action could have resulted in a disnosition described in subDaraeranh (A),
      (Bh 0,     or CD).
              (3) In the case of the proceeding referred to in paragraph (1) that is
      commenced by the United States and is resolved by consent or compromise
      pursuant to an agreement entered into by a contractor and the United States, the
      costs incurred by the contractor in connection with such proceeding that are
      otherwise not allowable as reimbursable costs under such paragraph may be
      allowed to the extent specifically provided in such agreement.

              (4) In the case of a proceeding referred to in paragraph (1) that is
      commenced by a State, the head of the agency or Secretary of the military
      department concerned that awarded the covered contract involved in the
      proceeding may allow the costs incurred by the contractor in connection with
      such proceeding as reimbursable costs if the agency head or Secretary
      determines, in accordance with the Federal Acquisition Regulation, that the
      costs were incurred as a result of (A) a specific term or condition of the
      contract, or (B) specific written instructions of the agency or military
      department.
              (5)(A) Except as provided in subparagraph (C), cost incurred by a
      contractor in connection with a criminal, civil, or administrative proceeding
      commenced by the United States or a State in connection with a covered
      contract may be allowed as reimbursable costs under the contract if such costs

                                            40
                               Appendix C. Federal Statutes on Allowable Costs

are not disallowable under paragraph (l), but only to the extent provided in
subparagraph (B) .

                (B)(i) The amount of the costs allowable under subparagraph (A)
in any case may not exceed the amount equal to 80 percent of the amount of the
costs incurred, to the extent that such costs are determined to be otherwise
allowable and allocable under the Federal Acquisition Regulation.

                        (ii) Regulations issued for the purpose of clause (i) shall
provide for appropriate consideration of the complexity of procurement
litigation, generally accepted principles governing the award of legal fees in
civil actions involving the United States as a party, and such other factors as
may be appropriate.

                 (C) In the case of a proceeding referred to in subparagraph (A),
contractor costs otherwise allowable as reimbursable costs under this paragraph
are not allowable if (i) such proceeding involves the same contractor misconduct
alleged as the basis of another criminal, civil, or administrative proceeding, and
(ii) the costs of such other proceeding are not allowable under paragraph (1).

        (6) In this subsection:

                (A) The term “proceeding” includes an investigation.

                (B) The term “costs”, with respect to a proceeding--

                       (i) means all costs incurred by a contractor, whether
before or after the commencement of any such proceeding; and

                        (ii) includes--

                                  (1) administrative and clerical expenses;

                            (II) the cost of legal services, including legal
services performed by an employee of the contractor;

                              (III) the cost of the services of accountants and
consultants retained by the contractor; and

                              (IV) the pay of directors, officers, and employees
of the contractor for time devoted by such directors, officers and employees to
such proceeding. .

              (C) The term “penalty” does not include restitution,
reimbursement, or compensatory damages.

( 1) Definitions. --In this section:

        (l)(A) The term “covered contract” means a contract for an amount in
excess of $500,000 that is entered into by the head of an agency, except that
such term does not include a fixed-price contract without cost incentives or any
firm fixed-price contract for the purchase of commercial items.



                                        41
Appendix C. Federal Statutes on Allowable Costs

               (B) Effective on October 1 of each year that is divisible by five, the
      amount set forth in subparagraph (A) shall be adjusted to the equivalent amount
      in constant fiscal year 1994 dollars. An amount, as so adjusted, that is not
      evenly divisible by $50,000 shall be rounded to the nearest multiple of $50,000.
      In the case of an amount that is evenly divisible by $25,000 but is not evenly
      divisible by $50,000, the amount shall be rounded to the next higher multiple of
      $50,000.
             (2) The term “head of the agency” or “agency head” does not include
      the Secretary of a military department.

             (3) The term “agency” means the Department of Defense, the Coast
      Guard, and the National Aeronautics and Space Administration.




                                         42
                                       Appendix C. Federal Statutes on Allowable Costs




                         UNITED STATES CODE ANNOTATED
                           TITLE 41. PUBLIC CONTRACTS
                       CHAPTER C-PROCUREMENT PROCEDURES
                     SUJKHAPTER IV--PROCUREMENT PROVISIONS


       Section 256. Allowable costs’

        (a) Indirect cost that violates a FAR cost principle

       An executive agency shall require that a covered contract provide that if the
       contractor submits to the executive agency a proposal for settlement of indirect
       costs incurred by the contractor for any period after such costs have been
       accrued and if that proposal includes the submission of a cost which is
       unallowable because the cost violates a cost principle in the Federal Acquisition
       Regulation (referred to in section 421(c)(l) of this title) or an executive agency
       supplement to the Federal Acquisition Regulation, the cost shall be disallowed.

        (b) Penalty for violation of cost principle

               (1) If the executive agency determines that a cost submitted by a
       contractor in its proposal for settlement is expressly unallowable under a cost
       principle referred to in subsection (a) of this section that defines the allowability
       of specific selected costs, the executive agency shall assess a penalty against the
       contractor in an amount equal to--

                      (A) the amount of the disallowed cost allocated to covered
       contracts for which a proposal for settlement of indirect costs has been
       submitted; plus

                     (B) interest (to be computed based on provisions in the Federal
       Acquisition Regulation) to compensate the United States for the use of any
       funds which a contractor has been paid in excess of the amount to which the
       contractor was entitled.

               (2) If the executive agency determines that a proposal for settlement of
       indirect costs submitted by a contractor includes a cost determined to be
       unallowable in the case of such contractor before the submission of such
       proposal, the executive agency shall assess a penalty against the contractor in an
       amount equal to two times the amount of the disallowed cost allocated to
       covered contracts for which a proposal for settlement of indirect costs has been
       submitted.

        (c) Waiver of penalty

        The Federal Acquisition Regulation shall provide for a penalty under subsection
        (b) of this section to be waived in the case of a contractor’s proposal for
        settlement of indirect costs when--


’ Current through Public Law 105-15, approved 5-15-97

                                                43
Appendix C. Federal Statutes on Allowable Costs

              (1) the contractor withdraws the proposal before the formal initiation of
      an audit of the proposal by the Federal Government and resubmits a revised
      proposal;

               (2) the amount of unallowable costs subject to the penalty is
      insignificant; or

               (3) the contractor demonstrates, to the contracting officer’s satisfaction,
      that--

                     (A) it has established appropriate policies and personnel training
      and an internal control and review system that provide assurances that
      unallowable costs subject to penalties are precluded from being included in the
      contractor’s proposal for settlement of indirect costs; and

                     (B) the unallowable costs subject to the penalty were
      inadvertently incorporated into the proposal.

      (d) Applicability of contract disputes procedure to disallowance of cost and
      assessment of penalty

      An action of an executive agency under subsection (a) or (b) of this section--

               (1) shah be considered a final decision for the purposes of section 605
      of this title; and

               (2) is appealable in the manner provided in section 606 of this title.

      (e) Specific costs not allowable

               (1) The following costs are not allowable under a covered contract:

                       (A) Costs of entertainment, including amusement, diversion, and
      social activities, and any costs directly associated with such costs (such as
      tickets to shows or sports events, meals, lodging, rentals, transportation, and
      gratuities).

                      (B) Costs incurred to influence (directly or indirectly) legislative
      action on any matter pending before Congress, a State legislature, or a
      legislative body of a political subdivision of a State.

                        (C) Costs incurred in defense of any civil or criminal fraud
      proceeding or similar proceeding (including filing of any false certification)
      brought by the Unites States where the contractor is found liable or had pleaded
      nolo contendere to a charge of fraud or similar proceeding (including filing of a
      false certification).

                      (D) Payments of fines and penalties resulting .from violations of,
      or failure to comply with, Federal, State, local, or foreign laws and regulations,
      except when incurred as a result of compliance with specific terms and
      conditions of the contract or specific written instructions from the contracting
      officer authorizing in advance such payments in accordance with applicable
      provisions of the Federal Acquisition Regulation.


                                            44
                               Appendix C. Federal Statutes on Allowable Costs


                   03 Costs of membership in any social, dining, or country club
or organization.

                 P) Costs of alcoholic beverages.
                 63 Contributions or donations, regardless of the recipient.
                   G-0 Costs of advertising designed to promote the contractor or
its products.

                    Costs of promotional    items and memorabilia, including
models, gifts,   2lsouvenirs.
              (0 Costs of travel by commercial aircraft which exceed the
amount of the standard commercial fare.

              (IQ Costs incured in making any payment (commonly known as
“golden parachute payment”) which is--

                       (i) in an amount in excess of the normal severance pay
paid by the contractor to an employee upon termination of employment; and

                       (ii) is paid to the employee contingent upon, and
following, a change in management control over, or ownership of, the
contractor or a substantial portion of the contractor’s assets.

                (L) Costs of commercial insurance that protects against the costs
of the contractor for correction of the contractor’s own defects in materials or
workmanship.

               (M) Costs of severance pay paid by the contractor to foreign
nationals employed by the contractor under a service contract performed outside
the United States, to the extent that the amount of severance pay paid in any
case exceeds the amount paid in the industry involved under the customary or
prevailing practice for firms in that industry providing similar services in the
United States, as determined under the Federal Acquisition Regulation.

                 (N) Costs of severance pay paid by the contractor to a foreign
national employed by the contractor under a service contract performed in a
foreign country if the termination of the employment of the foreign national is
the result of the closing of, or the curtailment of activities at, a United States
facility in that country at the request of the government of that country.

                (0) Costs incurred by a contractor in connection with any
criminal, civil, or administrative proceeding commenced by the United States or
a State, to the extent provided in subsection (k) of this section.

         (Z)(A) Pursuant to the Federal Acquisition Regulation and subject to the
availability of appropriations, an executive agency, in awarding a covered
contract, may waive the application of the provisions of paragraphs (l)(M) and
(l)(N) to that contract if the executive agency determines that--

                      (i) the application of such provisions to the contract
would adversely affect the continuation of a program, project, or activity that

                                       45
Appendix C. Federal Statutes on Allowable Costs

      provides significant support services for employees of the executive agency
      posted outside the United States;

                             (ii) the contractor has taken (or has established plans to
      take) appropriate actions within the contractor’s control to minimize the amount
      and number of incidents of the payment of severance pay by the contractor to
      employees under the contract who are foreign nationals; and

                             (iii) the payment of severance pay is necessary in order to
      comply with a law that is generally applicable to a significant number of
      businesses in the country in which the foreign national receiving the payment
      performed services under the contract or is necessary to comply with a
      collective bargaining agreement.

                     (B) An executive agency shall include in the solicitation for a
      covered contract a statement indicating--

                             (i) that a waiver has been granted under subparagraph (A)
      for the contract; or

                              (ii) whether the executive agency will consider granting
      such a waiver, and, if the executive agency will consider granting a waiver, the
      criteria to be used in granting the waiver.

                     (C) An executive agency shall make the final determination
      regarding whether to grant a waiver under subparagraph (A) with respect to a
      covered contract before award of the contract.

               (3) The provisions of the Federal Acquisition Regulation implementing
      this section may establish appropriate definitions, exclusions, limitations, and
      qualifications. Any submission by a contractor of costs which are incurred by
      the contractor and which are claimed to be allowed under Department of Energy
      management and operating contracts shall be considered a “proposal for
      settlement of indirect costs incurred by the contractor for any period after such
      costs have been accrued”, as used in this section.

      (f) Required regulations

              (1) The Federal Acquisition Regulation shall contain provisions on the
      allowability of contractor costs. Such provisions shall define in detail and in
      specific terms those costs which are unallowable, in whole or in part, under
      covered contracts. The regulations shall, at a minimum, clarify the cost
      principles applicable to contractor costs of the following:

                       (A) Air shows.

                       (B) Membership in civic, community, and professional
      organizations.

                       (C) Recruitment.

                       (D) Employee morale and welfare.



                                          46
                              Appendix C. Federal Statutes on Allowable Costs

               (E) Actions to influence (directly or indirectly) executive branch
action on regulatory and contract matters (other than costs incurred in regard to
contract proposals pursuant to solicited or unsolicited bids).

               03 Community relations.
               (G) Dining facilities.
               (W Professional and consulting services, including legal
services.

               (1) Compensation.
               0    Selling and marketing.

               0    Travel.

               (L) Public relations.
               (Ml Hotel and meal expenses.
               (N) Expense of corporate aircraft.
               (0) Company-furnished automobiles.
               m Advertising.
               (Q) Conventions.
        (2) The Federal Acquisition Regulation shall require that a contracting
officer not resolve any questioned cost until the contracting officer has obtained-


               (A) adequate documentation with respect to such costs; and

               (B) the opinion of the contract auditor on the allowability of such
costs.

        (3) The Federal Acquisition Regulation shall provide that, to the
maximum extent practicable, a contract auditor be present at any negotiation or
meeting with contractor regarding a determination of the allowability of indirect
costs of the contractor.

        (4) The Federal Acquisition Regulation shall require that all categories
of cost designated in the report of a contract auditor as questioned with respect
to a proposal for settlement be resolved in such a manner that the amount of the
individual questioned costs that are paid will be reflected in the settlement.

(g) Applicability of regulations to subcontractors

The regulations referred to in subsections (e) and (f)(l) of this section shall
require prime contractors of a covered contract, to the maximum extent
practicable, to apply the provisions of such regulations to all subcontractors of
the covered contract.

                                       47
Appendix C. Federal Statutes on Allowable Costs

      (h) Contractor certification required

              (1) A proposal for settlement of indirect costs applicable to a covered
      contract shall include a certification by an official of the contractor that, to the
      best of the certifying official’s knowledge and belief, all indirect costs included
      in the proposal are allowable. Any such certification shall be in a form
      prescribed in the Federal Acquisition Regulation.

              (2) An executive agency may, in an exceptional case, waive the
      requirement for certification under paragraph (1) in the case of any contract if
      the agency--

                     (A) determines in such case that it would be in the interest of the
      United States to waive such certification; and

                     (B) states in writing the reasons for that determination and makes
      such determination available to the public.

      (i) Penalties for submission of cost known as not allowable

      The submission to an executive agency of a proposal for settlement of costs for
      any period after such costs have been accrued that includes a cost that is
      expressly specified by statute or regulation as being unallowable, with the
      knowledge that such cost is unallowable, shall be subject to the provisions of
      section 287 of Title 18 and section 3729 of Title 3 1.

      (j) Contractor to have burden of proof

      In a proceeding before a board of contract appeals, the United States Court of
      Federal Claims, or any other Federal court in which the reasonableness of
      indirect costs for which a contractor seeks reimbursement from the United
      States is in issue, the burden of proof shall be upon the contractor to establish
      that those costs are reasonable.

      (k) Proceeding costs not allowable

              (1) Except as otherwise provided in this subsection, costs incurred by a
      contractor in connection with any criminal, civil, or administrative proceeding
      commenced by the United States or a State are not allowable as reimbursable
      costs under a covered contract if the proceeding (A) relates to a violation of, or
      failure to comply with, a Federal or State statute or regulation, and (B) results
      in a disposition described in paragraph (2).

             (2) A disposition referred to in paragraph (l)(B) is any of following:

                      (A) In the case of a criminal proceeding, a conviction (including
      a conviction pursuant to a plea of nolo contendere) by reason of the violation or
      failure referred to in paragraph (1).

                      (B) In the case of a civil or administrative proceeding involving
      an allegation of fraud or similar misconduct, a determination of contractor
      liability on the basis of the violation or failure referred to in paragraph (1).



                                           48
                             Appendix C. Federal Statutes on Allowable Costs

               (C) In the case of any civil or administrative proceeding, the
imposition of a monetary penalty by reason of the violation or failure referred to
in paragraph (1).

               (D) A final decision--

                       (1) to debar or suspend the contractor,

                       (ii) to rescind or void the contract, or

                       (iii) to terminate the contract for default,

by reason of the violation or failure referred to in paragraph (1).

               (E) A disposition of the proceeding by consent or compromise if
such action could have resulted in a disposition described in subparagraph (A),
(B), (C), or (D).
        (3) In the case of a proceeding referred to in paragraph (1) that is
commenced by the United States and is resolved by consent or compromise
pursuant to an agreement entered into by a contractor and the United States, the
costs incurred by the contractor in connection with such proceeding that are
otherwise not allowable as reimbursable costs under such paragraph may be
allowed to the extent specifically provided in such agreement.

        (4) In the case of a proceeding referred to in paragraph (1) that is
commenced by a State, the executive agency that awarded the covered contract
involved in the proceeding may allow the costs incurred by the contractor in
connection with such proceeding as reimbursable costs if the executive agency
determines, in accordance with the Federal Acquisition Regulation, that the
costs were incurred as a result of (A) a specific term or condition of the
contract, or (B) specific written instructions of the executive agency.

        (5)(A) Except as provided in subparagraph (C), costs incurred by a
contractor in connection with a criminal, civil, or administrative proceeding
commenced by the United States or a State in connection with a covered
contract may be allowed as reimbursable costs under the contract if such costs
are not disallowable under paragraph (1)) but only to the extent provided in
subparagraph (B) .

                (B)(i) The amount of the costs allowable under subparagraph (A)
in any case may not exceed the amount equal to 80 percent of the amount of the
costs incurred, to the extent that such costs are determined to be otherwise
allowable and allocable under the Federal Acquisition Regulation.

                        (ii) Regulations issued for the purpose of clause (i) shall
provide for appropriate consideration of the complexity of procurement
litigation, generally accepted principles governing the award of legal fees in
civil actions involving the United States as a party, and such other factors as
may be appropriate.

               (C) In the case of a proceeding referred to in subparagraph (A),
contractor costs otherwise allowable as reimbursable costs under this paragraph
are not allowable if (i) such proceeding involve the same contractor misconduct

                                     49
Appendix C. Federal Statutes on Allowable Costs

      alleged as the basis of another criminal, civil, or administrative proceeding, and
      (ii) the costs of such other proceeding are not allowable under paragraph (1).

              (6) In this subsection:

                     (A) The term “proceeding” includes an investigation.

                     (B) The term “costs”, with respect to a proceeding--

                             (i) means all costs incurred by a contractor, whether
      before or after the commencement of any such proceeding; and

                             (ii) includes--

                                        (1) administrative and clerical expenses;



                                  (II) the cost of legal services, including legal
      services performed by an employee of the contractor;

                                    (III) the cost of the services of accountants and
      consultants retained by the contractor; and

                                    (IV) the pay of directors, officers, and employees
      of the contractor for time devoted by such directors, officers, and employees to
      such proceeding.

                    (C) The term “penalty” does not include restitution,
      reimbursement, or compensatory damages.

      (1) “Covered contract” defined

              (1) In this section, the term “covered contract” means a contract for an
      amount ‘in excess of $500~000 that is entered into by an executive agency,
      except that such term does not include a fixed-price contract without cost
      incentives or any firm, fixed price contract for the purchase of commercial
      items.

               (2) Effective on October 1 of each year that is divisible by five, the
      amount set forth in paragraph (1) shall be adjusted to the equivalent amount in
      constant fiscal year 1994 dollars. An amount, as so adjusted, that is not evenly
      divisible by $50,000 shall be rounded to the nearest multiple of $50,000. In the
      case of an amount that is evenly divisible by $25,000 but is not evenly divisible
      b&$5&)00, the amount shall be rounded to the next higher multiple of
          ,    *




                                               50
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Procurement


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Contract Management Command

Non-Defense Federal Organizations and Individuals

Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           51
Part III - Management Comments
 Defense Contract Audit Agency Comments




              PIC 225 [IG 7OC-90123                                       4 November 1997

              hlEhfORANDlJM       FOR DEplr”TY ASSISTANT INSPECTOR GIBERAL, AUIXT
                                  POLICY AND OVERSIGHT, DEPARTMENT OF DEFENSE

              SUBJECT: Response to Draft DoDiG Report on Defense Contract Aodit Ageacy Audits of
                       Indirect Costs at Major Contractors (Project No. 7OC-9012)


                      Our response to the subject
                                                report rccommcndationsand to selected statemeots in tbc
              report fbnow:




              DCAA ~IJ.K,        Noucot~caw. On page 4 of the dnft report you state:

                         lfpnlwtly impkmnue4 tke infemol control .pwm review jar charging
                         mdrecr cos.t~dmukipti&     o reawmbk brrsis)bp pTsLl(inG the au& tisk
                         asaWed    wilt4 he  cvstt.

                      We agree that DCAA’S existing approach Tar reviewing umtmctor indireu cost system
              intcmal comrols should be prop+ impltmented, and that if properly implemcmed, it will protie
              8 reasonable basis for assessing audii risk. Wt also agree that our FAOs cognizant of major
              contractor locations should have cun-ent audits of the contractors’ indirect cost system iotemal
              controls comp&ed by the end of FY 19911@commendation AZ)

                      We do not agree, bowcw, with the report’s conclusion tbat our FAOS must perform
              additional @xas&oo testing to test the contractor’s indirect cost system intemal cootrols. The
              draft report’s coockasion is pnsemed on pages 5 through 7 sod restated in part below:




*Original management comments were marked “For Official Use Only. * On March 25, 1998,
DCAA agreed to the removal of the “For Official Use 0nly”marking from this response to the
draft report in order to include it in our final report.



                                                       54
                                            Defense Contract Audit Agency Comments



                                                                                                       Final Report
                                                                                                        Reference




PIC 225 [IG 7OC-90121
SUEJECT: Response to Draft DoDIG Report on Defense Contract Audit Agency Audits of
           Indirect Costs at Major Contractors (Project No. 7OC-9012)


                Ofthefw internal control system audits we reviewed one did not include
            any trmrraciion testing und the other three included limited compliance
            testing. generally of of@ one qxc~#c item. Alifw       reviews relied on findings
           fr0motherLX.U       auciirssuch4stheprioryears’in~~~~~~
            CAS 405 revWs,      The contractor’s intemal controi system fw &aging                     Revised
            im?rect casts cunnot be a&quate!y reviewed in this manner. . .[DraffIG                    Page No. 5
           Report,   p.61
        DCAA believes that its auditors can and should rely on other forms of audit evidence to
test contractors’ indirect cost system internal controls. Exampies of these other forms of evidence
include: (i) other completedand in-processICAPS reviews;(ii) the results of past years’ incurred
cost audits and cxxmnctor internal audits,particularlyas they date to the screeningof
unallowablecosts; (iii) compamtiwanalysisof the amountsbetweenand within key wntractor
accounts;and (iv) the results of CAS 405 audits. In supportof our position,we have restated
below the key sectionsfromthe applicableauditingstanda& that form the basis for DCAA’s
policy in the area (emphasis added).

           4.21 Auditorsshouldobtain a sufficientunderstanding of internalcontrolsto
               plan the audit and deter&ne the nature, timing,and extent of tests to be
               performed.[GAGAS &t.21]
           4.30 Auditorsshould design the audit to provide reasonable assurance that the
           financial sWemen& are free of material misstatements resulting from violations
           of laws and regulations that have a direct and materialeffect on the
           de&&x&ion of financialstatementamounts. To meet that requirement
           auditors shouldhave an understarsdingof internal controls relevantto financial
           ststementassertions&&ted by thoselawsandregulations. Audit- should
           use that u&rstanding to iden@ typesof potentialmisstatements,consider
           the tiers that a&t the risk of materialmisstatement,and design substantive
           tests. . ..(GAGAS 14.30)
           4.3 1 When auditors assess control risk below the maximum for a given
           financial statement assertioq they rrduce their need for evidence from
           substantive tests of that assertion. Auditorsare not requiredto assesscontrol
           risk bdow the ~m,but~lilrdihoodthattheywillfindit~cientand
           effective to do so increaser with the size of the entities they auditand the
           complexityof their operations. Auditors should do the following when
           assessing control risk below the maximum:

               a. identify internal controls that are relevant to a specific fmancial
               statement ass&on;

               b. performtests that providesufF&nt evidencethat those controls are
               effective;and



                                                  2
Defense Contract Audit Agency Comments




         PIG 225 [IG 7OC-!9012]
         SUBJECT:Reqnme.to haft DoDIGReporton Defense.Contract AuditAgency Audi of
                    Indirect Costs at Major Contracts (Project No. 7OC-9012)


                     c documentthe tests of mtrok.    [GAGAS44.3t]

                 4.32 Auditors shouldrcmembQthe f&~owinSwhen piming
                                                                  andPafOtig
                 testsof controls:

                    a. The lower the auditors’23scssmcnt
                                                       of control ri& the moreevidence
                       theyneedto support that assessment.

                    b. Auditors may have to usea combinationof different kinds of tests
                       of cuntrolsto get suffxia11 evidenceof I controPseffectivenas.

                    c. Inquiriesalonegamally will not supportan awssmalt that controlrisk is
                       Mow the maximum

                    d   Observations provideevidexe abouta control’sctTectivenes9
                                                                               only at
                        the time obswed: theydo not provideevidenceahoutits e&cti-
                        duringthe restof the period under audit.

                    e Audiion can use evklencefrom testsof controlsdone in prior
                      audits (or at an interimdate), but they have to obtain evidence
                      about the nature and the extent ofsi~ificsnt &ages in policies,
                      pmcedur~, and pcrsonnclsince they last performedthose tats.
                        [GAGAS$4.321

                 Evidentialmatterto Supponthe Assessed
                                                     Levelof ControlRisk

                 .64 When the auditorassesses    controlrisk at below the maximwnlewd, he or
                 she should obtain sufficientevidentid matter to supportthat assessed level.
                 The evidential matter that is tuffient to supporta specificassassedlevel
                 of contrul risk is a matter of auditingjudgment. Evidentialmatter varies
                 s&Manwyintbe awranceitprovidcstotheauditorasheor~developsan
                 assasedkvelofcontmlrisk. ThetypeofevidaMmattqitasourqits
                 tirnebness,and the existenceofotherevidentialmatter relatedto the
                 conclusiontowhichitkadgallbearonthedegmofassu~evidential
                 matter provides. [C&icatiin of AuditingStandprdrAU p.641

                 .65 These chwackistica kdluencethe nature, timing,and extent of the tests of
                 cxx&olsthat the auditor appliesto obtain evidentialmatteraboutcontrolrisk.
                 The auditor sdccta such tests from a vhty of techniqueasuch w
                 inquiry, absmation, iospcction,and reperfommnceofa cuntrol that
                 pertains to aa assertion. No one rpcdu test of coutrob is ahvays
                 necessary, applicable,or eqnrily effectivein e-vvgcircumstance.
                 ~Codificationof AuditingStanda& AU $641




                                                      56
                                        Defense Contract Audit Agency Comments




                                                                                                     Final Report
                                                                                                      Reference



PIC 225 [rG 7OC-90121
SUBJECT: Response to Draft DoDlG Report on Defense Contract Audit Agency Audits of
           Indirect Costs at Major Contractors (Project No. 7OC-9012)


        In addition to the preceding arguments, we do not believe that the IG findings are of such
a magnitude to warrant scrapping DCAA’scurrentaudit approach (which the IG admits will work
if properly impkmented) in favor ofthis new approach. We also do not believe that the IG’s
recommended approach is i&rent& more comprehensive and productive than DCAA’s currem
approach. In fact, because DCAA auditors rely on 4tiple sources of audit evidence in forming
their opinions, we believe that a comprehensive three year sample to test the iudirax cost
accounts would be highly duplicative ofsomeof the testing and evidence on which DCAA already
relies.


Recommendrtiou A.2

           We ncommemithot the Director#DC&meContractAudit Agency direct a&
           oflces cognkani of all major contra&x kxufions to complete the im’tiai
           audit of the intemai con& -fop      the Irm?mctand Other Direct Costs by
           the endof FY 1998, ifuot &ta in FYs 1996 or 1997.

DCAA w:           Concur. A memorandumnotifyingour regionaldirectorsof this requirement
wiU be issuedby 26 November 1997.



Recommendation B.l

           We recommendthat the Director. Defensz ConfraciAudit Agency &ecf the                      Revised
           use of a minimumconf&nce &veIof 90 percent with a precision ofno lees                     Page No. 18
           thun IOpercent whenpe@rming a tiistical sample.

v:                  Nonconcur. The IG recumuwdation, in our opinion, is aa impractical
rquireuwut. Fii audit resoume requirements would prove to be overwhehning. Second,
establiihment of specific precision crheria takes away much needed auditor judgment from the
sampling process. Fii,     the benefits derived from the tighter precision calculations are simply
not worth the increased cost in time and effort.

        Sample sizes would be huge. History has shown that common DCAA sample sizes,
raaging~40to60trsnsrctions,willatbest,rchieveapreciaionratioof25pacentata70
percent cougdeoce level. Under the TG’s recommendation these samples would have to be
sixteen tiies their current size, thus ranging from 640 to 960 uamactions. This is so because, aa
a rough rule, a halving of the precision amount requires a quaclrupliig of sample size. By
extension, quartering the precision amount (to achieve a precision ratio of 10 percent at 90
percent conlldeuce) would require a multipk of sixteen.

       There is no doubt that better precision is theoretically desirable, but as shown above,
achieving it is orpensive. What exactly are the be&its associated with tighter precision? Tfthe


                                                4




                                                    57
Defense Contract Audit Agency Comments




         PIC 225 [IG 7OC-90123
         SUBJECT: Response 10 Lhdt DODIGReport on Ddnse Contract Audit Agency Audits of
                    Indirect Costs at Major Contractors (Project No. 70(3-9012)


        Government recovcxs an amount equal to the point estimate of the misstatements in a cost
        submission. the associated precision depicts an overstatement amount that tigk rtill cxiyt a&r
        the recovuy. Precision improvement does not mean that the Govzrmnat will recover more
        qucxtionable costs (nor did the IG evaluation find any additional questioned cost in the
        transactionsit reviewed). Instead.it simply means that the Governmcnt would be more sure (but
        still not totally sure) that the uNecovtTc4 misstated amounts are within materiality limits. It
        seems dear thatone should focus on the materiality of this amount in judging the adequacy of an
        audii sample’s precision.

                 II is our contention that the auditor performing the sample is io the best position to
         determine what a reasonable sample size should be. In making this determination, the auditor
         must take into consideration materiality and the acceptable risk of an undetected cost
         misstatement. For example, if halving the precision in a particular statistical sample from
         S100.000 to SSO,OOO    means looking at an additional 500 items (fi-om an initial sample of 50). it
         should be the auditor’sjudgment as to whethex the huea.             cost in reviewing the additional
         items is worth the impmvementin precision. It is our Mief that implementation of a specific
         precision criteria ignores considerations for materiality and will lead to an ineBkicnt use of audit
         resources.

                The IG’s avabmtion did discIose the use of informal Rules of 7?wmb. These informal
        guidelines allow auditon (in instaxes of low risk) to use a 70 p-t        confidence kvel with a
        45 percent precisionlevel. We agree that the use of these informal guidelines is inappropriate. As
        an alternative to the recommendation, we intend to:

             1. develop a more analyticalapproach for audiiors to use in determining sample sizes,

            2. re-emphasize the currmt CAM guidnnccfound           in Appcndii   B related to detexmining
               appropriate sample sizes, and

            3. czxtinuc with our evahmtion of the data recently gathered on the types of sampling
               performal in the DCAA audits covered by your evaluation to determine if other policy
               ckrifications are warran&. (This data has been made availableto your reviewers.)




                     We recanmcnd that the Uirector~Lkfense Contract A&t Agemy revise
                    &fens? Confmci Audir Mamu~ chapter I and qqmdix B, to permit grearer
                    jlexibiliiy in the exercise of auditorjudgment an the use 0fnOnrratiw~
                     samplingfor ~mn~~~kwtaltesthg. Revised guidance should inckk
                     gui&lines on usingputposgid orjudgmental sampling to select indirect cost
                     acwtmt transachms IObe reviewed at low-risk contructors.




                                                            58
                                           Defense Contract Audit Agency Comments



                                                                                                   Final Report
                                                                                                    Reference



PIC 225 [IG 7OC-90123
SUBJFXT: Response to Draft DoDIG Report on Dcfk-nseContract Audit Agency Audits of
           Indirect Costs atMajor Contractors (Project No. 7OC-9012)


DCAA Resoonse: Nonconcur. Page 10 of the draft report states:
                                                                                                   Page No. 11
           Most audit @ces wed stotisticai sampling techniques to select specfic
           tranwctions OTitemsfw review by individnal cost accowtt.

        We gathered data on the types of samplingachally paformed in the 10 DCAA audits
 covered by your evahration. This data shows that a total of 124 aeeounts were reviewed in the
DCAA audits, and that 26 of these accounts (21%) were rnkwed usiig statistical sampiii 93
 accounts (75%) were reviewed using judgmental sampling, and the remaining 5 accounts (4%)
 were reviewed using a combination of both types of sampling. Based on this data, we cannot
 concur with the implication of your basic statement above, nor can we concur with the resulting
recommendation. White “most audit offices” may have “used statistical sampling techniquea.” the
vast majority of aoeounts audited were evaiuated using judgmental    sampling. We believethat
 DCAA’s existing policy provides its fieid auditors with adequate flexiility in the use of
judgmental sampiing &that DCAA’s auditorsare currently making broad use of thii tkxibitity.


Recommendation B.3

           We recommendthattheDirector, Defense Contract Atuiit Agency iuwe
           interim guidmce immeakteiy to the regional amifiekiaudit o&es
           implemem5ngthe Skztementson AudiringSIonrdmdrNo. 82. “Consideration
           of Froud on a Financiai StatementAudit, ” in particukv, the guickmcein the
           Defense Contract Audit ikkmual, appendix Q that reties to due profesional
           care andpmfzssional skeptic&x The interim guidmce shotdd a&ress how
           to implement the revised au&tng slondmd on due pmfesstona~ core and
           should be incor~mtedpromptIy into he next version of the Defeme Contract
           At&t   Mnuai.

D:                Nooeencur. Under the paragraph ‘Auditor Analysis of Seiected                     Page No. 13
Transactions” (page 12). the drag repon states that:

           in numerous instances. lhe auditor did not criticaUy mra&ze tk banractions
           sektedfm rev&. Frequently, the aua?tor&d not ask enough questions
           about the costs or determined that the dollar amount ws insig+anr anddid
           notpursue compiete cmswers to their inquiries about the items.

In the following paragraphs. the report discloses tluee speciiic instances of the above
generaily-cited defkieneies. and we do not question that the IG evaluators encountered
other similar instances. However, we do not eonour with many of the IG citings, as noted
in the specific eomments provided to the IG ewkators in response to tbe evaluators’
notes. Ftuthermore, in the ten audii covered in the IG evaluation, there were specific
DCAA working papers supporting approximately 4000 individual transactions reviewed


                                               6




                                                   59
               Defense Contract Audit Agency Comments



Final Report
 Reference



                        PIC 225 [IG TX-90121
                        SUBJECT: Response to Draft DoDIGReport on Defense ContractAuditAgencyAuditsof
                                   Indirect Costs at Major Contractors(Project No. 7OC-9012)


                        for the 124 separate accounts. Given the volumeof specifictransactionsreviewed,we do
                        not believethe IG has s&iciently doaunented a generald&iency such that a prudent
                        person would reach the samebroad-basedconchtsiondrawn by the IG, i.e., that the
                        occasionalerrors in analysisresult Borna generalAgency-widelack of professionalcare
                        and skepticism.

                                Nohvithstandingour response above, we will forward this report with your
                        Wings and concernsto each DCAAregion and geld audit oflice, alongwith our
                        direction to correct any relatedweaknessesIhat they may have in their respectiveincurred
                        cost audit programsand procedures,or in the performanceof individualauditors.


                        RccommendalionC      I

                                   We rewmmend &I the Direc!orBDejense ContractAt& Agency revise /he
 Revised                           Debnse ContractAudit Mmual chapter 6, se&on 6-608.3(aj(2) lo include:
 Page 26
                                   a. All eqoresslyunallowablecosts subJecr fo a level-onepenalty to&r Me
                                      IO. UniredStates Code. Secrian 2324: Title41, UniledStatesCode,
                                      Se&n 2%; Federal AcquisitionRegulationsltbpart31.205; andDtfenve
                                      Federal AcquisitionRegukdion Supplonn? .vtbpart231.205.

                                   b. A&tional injormationspec~ifng whencenain COHS
                                                                                  ikutmay or maynot
                                      be expressvly
                                                  unakable wouldw wouldnot be consiakredeqaressiy
                                      unallowable.

                        QCAA Resow        Nonconcur. Chapter6. section 6-606.3(a)(2) of D&M’s CAM alreadyrefers
                        to the CAS and FAR sectionsthat specificallyde&e, describe,and exemplirywhat are expressly
                        unallowablecosts. To huther expandthe coverage and examplesin CAMsection 6608.3, in our
                        opinion. would be an unjustifiedduplicationof the existingFAR coverage(and in some cases,
                        CAM coverage). As you know, the FARcost ptinciplesare frequentlychanged,and some are
                        quite complex(e.g., 3 I.2056on unallowableexecutivecompensation). To mirrorthem in
                        summaryfashionand keep them up to datein CAM 6-608.3(a)(2),as well as in other sections of
                        CAM (eg, 6-414.8for executive compensation), would represent a substantial effort and cost to
                        DCA& withoutan ofSettingpay-back,in our opinion.


                        Recommendation C.2

                                   Werewmmend thawfhe Director_Defense ContractAudifAgents revise
                                   guidance in Dejw  Con&xl Au&t Manual &pier 6. section 6, to c/aria
                                                                           costs Eubjectto penalties
                                   rha~the a&or must report all unalkz-vable
                                   i&n@ed during the audit, regardleD ofdollar amount.



                                                                       7




                                                                        60
                                        Defense Contract Audit Agencv Comments



                                                                                             Final Report
                                                                                              Reference




PIC 225 [IG 7OC4012]
SUBJECT: Responseto DratI DoDIGReport on DefenseConmct Audit AgencyAudi of
           Indirect Costs at Major Contractors(Project No. 7OC-9012)


DCAA Rmonsc; Concor. Wewilladd the recommendedguidanu to CAM by 3 I Juiy 1998.


J&commendationC3

          Werecmmnd that the Director,Defense Cmtract AuditAgencyrevise
          &fens Cmtract AI& haul ciqnw 6, section 608.U to chfi thathe
          auditorShmIkimah momJnen&ions concming the apprqRia&ness of
          pen&es oniy whenthe contractingoflcer qec#xUy requeslvlhot
          assesmenl. Ihe assessmentof whethera pe&Iy is qoropriaie shonki be
          made indqemiwalof and ajiierthe iswance of fhe incurredcost audit reporL

(2) JICAA R9onesJ;: Cancer. D&IA’s policy,aa stated in CAM 6-608.4d, will be revisedto
    more clearlyretlectthe provisionsof FAR 42.709-2(b)tht requireour auditorsto make
   re~rmne&tions to the c~ntractingofficer on wbicb costs maybe dowable     and subject to
   thepe&      aadproviderationaleandsupportingdoarmentationfor the recommahtions.


                              ADDITIONALCOMMENTS

      Our commentsaddressingselected statementsin the narrativeof your dfaR report follow:

JG Statmeat on Pane 3

          InFY 1596.theDC4A spentabmtl1.5 miiiian hmtrs(ahut 1,000 SI~JJWYS_)
          auditingaboui566 billion in direct avd indirectincurredcasts a~major
          contrac&s A major cuntmctor     has370 million w more in a&able doNms
          ye&y. Of the I,OW skgyeur& roughlv 100 lwre sj.%?uon indirec1 cosi
          au&    Sbrjhol owheaiavdit repmshued in iT 1996,tk DC4A
          qwhned    about 6596millian in both ohct cmdimiirect costs. Therefore,
          DC.XAqmstioned kss than I percent of the &lb revi&. Current
          momgementin_t?hnmlion     repoplsavuhble frwnDG44 cio not sqmrate
          dolkos emmined oTcosts questionedbetweendriccl md inhect casts.
          Homvrr, past eqerience indicateshat &e majori~ of cartr questhed is
          indtrectco&v, TheDGU estimatedhi 1.631sta~years would be qerd
          auditing$87.1 billion of rfirectomiindirec~inawredcadr in FY 1997ami
          that in FY 1998.1,608sta#~s wvuhibe used to reviov S86.9billion

K&4 Cm:             The direct andindixct costs questionedamciated with DCAA’sinamed         Revised
cost.s/iinaioverheadaudits was $842.4milEonfor PY 1996(vs. the $596millionabove). The
                                                                                             Wording
figuresbelow are alsomorea~~~            thanthe corresponding
                                                             8mountsabove.
                                                                                             and
                                                                                             Page No.3


                                            8




                                            61
Final Report
 Reference



               PSC225 [IG 7OG9012]
               !XIBJECT:RaponsetohaflDoDlGReport~DefmstContraaAuditAQencyAuditsof
                                                   (ProjectNo. 7069012)
                         IndWt bsts at MajorCon&u%ors


                                       DOLLARS             STAFFYEARS
                           FY                            SPENWROJECTED

                           1996       S66.0Million           Loo0
                           1997       s 93.8 lion            1,454
                           1998       !I 90.4 3iin           1.323



 Revised
 Wording
 and Page
 No. 12




                                                     9




                                                     62
Evaluation Team Members

This report was prepared by the Deputy Assistant Inspector General for
Audit Policy and Oversight, Office of the Assistant Inspector General for
Auditing, DOD.

Wayne C. Berry
Diane H. Stetler
Doug Johnston
Ana A. King
